<html>
<title> - IMPROVING THE PENTAGON'S DEVELOPMENT OF POLICY, STRATEGY, AND PLANS</title>
<body><pre>[Senate Hearing 114-395]
[From the U.S. Government Publishing Office]










                                                        S. Hrg. 114-395

  IMPROVING THE PENTAGON'S DEVELOPMENT OF POLICY, STRATEGY, AND PLANS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 8, 2015

                               __________

         Printed for the use of the Committee on Armed Services




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






        Available via the World Wide Web: http://www.fdsys.gov/
        
  
  
  
  
  
  
  
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-222 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     
        
        
        
        
        
        
        
        
        
        
        
        
        
        



  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  













                            C O N T E N T S

                               __________

                            december 8, 2015

                                                                   Page

Improving The Pentagon's Development of Policy, Strategy, and 
  Plans..........................................................     1

Flournoy, Hon. Michele A., former Under Secretary of Defense for 
  Policy.........................................................     4
Vickers, Hon. Michael G., former Under Secretary of Defense for 
  Intelligence...................................................    17
Eggers, Commander Jeffrey W., USN (retired), former Special 
  Assistant to The President for National Security Affairs and 
  Former U.S. Navy Seal Officer..................................    23

Questions for the Record.........................................    46

                                 (iii)

 
  IMPROVING THE PENTAGON'S DEVELOPMENT OF POLICY, STRATEGY, AND PLANS

                       Tuesday, December 8, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain, 
(chairman) presiding.
    Committee members present: Senators McCain [presiding], 
Inhofe, Sessions., Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Reed, Nelson, Manchin, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, and Heinrich.

            OPENING STATEMENT OF SENATOR JOHN McCAIN

    Chairman McCain. The committee meets today to continue our 
series of hearings on defense reform. We have reviewed the 
effects of the Goldwater-Nichols reforms on our defense 
acquisition, management, and personnel systems. In our most 
recent hearings, we have considered what most view as the 
essence of Goldwater-Nichols, the roles and responsibilities of 
the Secretary of Defense and the Chairman of the Joint Chiefs 
of Staff, the service secretaries, and service chiefs, and the 
combatant commanders.
    This morning we seek to understand how these civilian and 
military leaders formulate policy, strategy, and plans, as well 
as how to improve the quality of civilian control of the 
military and military advice to civilian leaders.
    We are fortunate to have with us a distinguished panel of 
witnesses, who are not strangers to this committee, who will 
offer their views based on many years of service to our Nation: 
The Honorable Michele Flournoy, former Under Secretary of 
Defense--and should have been Secretary of Defense--for Policy, 
who is currently CEO [Chief Executive Officer] of the Center 
for American Security; the Honorable Michael Vickers, former 
Under Secretary of Defense for Intelligence, who has also 
previously served as a special forces officer and a CIA 
[Central Intelligence Agency] operations officer; and Commander 
Jeffrey W. Eggers, former Special Assistant to the President 
for National Security Affairs, who served both President George 
W. Bush and President Barack Obama and was previously a U.S. 
Navy SEAL officer.
    As we have heard in previous hearings, Goldwater-Nichols 
emerged from concerns about the unity of command and the 
ability of our military to operate jointly. However, another 
primary concern was poor military advice, which former 
Secretary of Defense James Schlesinger said at the time had 
grown so bad that it was, quote, generally irrelevant, normally 
unread, and almost always disregarded. Unquote.
    That is why the Goldwater-Nichols Act elevated the Chairman 
of the Joint Chiefs of Staff as the Principal Military Advisor 
to the President and Secretary of Defense and created the 
position of Vice Chairman of the Joint Chiefs of Staff.
    The intent of these reforms is that the Secretary of 
Defense and Chairman of the Joint Chiefs of staff would be 
better able to promote a department-wide perspective that could 
integrate activities and resources comprehensively across the 
military services.
    Goldwater-Nichols also sought to improve the process of 
developing policy, strategy, and plans by requiring the 
President to submit a national security strategy and provide 
guidance to the Chairman of the Joint Chiefs of Staff and the 
combatant commanders for the preparation and review of 
contingency plans.
    These were all important reforms, but 30 years later, how 
do we evaluate their effectiveness? If we base that on the 
quality of so-called strategy documents such as the National 
Security Strategy or Quadrennial Defense Review [QDR], I fear 
we may have a serious problem. The QDR process has grown so bad 
that Congress created an independent panel to review the 
Pentagon's work. In 2010, that panel concluded, quote, instead 
of unconstrained, long-term analysis by planners who were 
encouraged to challenge preexisting thinking, the QDRs became 
explanations and justifications often with marginal changes of 
established decisions and plans. The poor quality of the DOD 
[Department of Defense] strategic planning documents may 
suggest a deeper, more troubling problem, that despite 
Goldwater-Nichols reforms or in some cases perhaps 
unintentionally because of them, the development of policy, 
strategy, and plans in the DOD has become paralyzed by an 
excessive pursuit of concurrence or consensus. Innovative ideas 
that challenge the status quo rarely seem to survive the 
staffing process as they make their long journey to senior 
civilian and military leaders. Instead, what results too often 
seems to be watered down, lowest common denominator thinking 
that is acceptable to all relevant stakeholders precisely 
because it is threatening to none of them.
    I would cite again our recent experience in Iraq. 
Regardless of what we think about the circumstances by which we 
went to war in Iraq, the fact is that our Nation was losing 
that war for 3 and a half years, with disastrous consequences 
for our national security if we did fail. And yet, the 
development of a new strategy to finally stabilize the 
situation was not produced by the system, but rather by a group 
of outside experts and insurgents within the system going 
around the system. In many ways, this question of strategy is 
the crux of our current review. The main problem that 
Goldwater-Nichols sought to address 30 years ago was primarily 
an operational one, the inability of the military services to 
operate as one joint force. It is impossible to dispute that at 
a tactical and operational level, the U.S. military today is 
unrivaled in the world and far more capable than it was 3 
decades ago, thanks in no small part to 14 consecutive years of 
sustained combat.
    The problem today, however, seems to rest far more at the 
level of strategy. Our adversaries from ISIL [Islamic State of 
Iraq and the Levant] to Iran and North Korea to China and 
Russia are inside our decision cycle. They are capable of 
responding to events deciding and acting faster than we are. 
Instead, the Department of Defense and the U.S. Government more 
broadly appears increasingly incapable of adapting and 
innovating at speeds sufficient to maintain the initiative and 
keep us a step ahead of our adversaries.
    The DOD also appears increasingly challenged by strategic 
integration, integrating thought and action across regions, 
across domains of military activity, and across short-term and 
long-term requirements. Perhaps this should not be surprising 
when, as previous have testified, the Secretary and the Deputy 
Secretary of Defense are the only two leaders in the Department 
with directive authority to mandate this kind of strategic 
integration. All of these problems are compounded by the fact 
that civilian control and oversight of the military has 
increasingly become confused with civilian micromanagement of 
the military.
    This is not an attempt to condemn an organization just 
because some disagree at times with its conclusions. This is a 
broader problem. Our defense organization has consistently been 
too slow in adapting to the threats and challenges we face 
today and will face tomorrow. And there are real questions as 
to whether our current defense organization, which has long 
assumed that wars it would fight would be short and largely 
one-sided, is optimally set up to succeed in long-term 
strategic and military competitions with great power rivals and 
non-state actors like ISIL.
    Part of this problem may lie, as previous witnesses have 
testified, in how the Department educates and develops its 
civilian and military leaders when it comes to strategy. I will 
be eager to hear our witnesses' thoughts on how to improve the 
Department's development and management of its people in this 
regard, and yet we must always remember that bad organizations 
all too often trump good people. Ultimately we must get this 
right because we have never confronted a more complex, 
uncertain, and numerous array of worldwide threats and our 
margin for error as a Nation is not what it once was and, 
indeed, is dramatically diminishing relative to our 
competitors. We have largely weathered the consequences of our 
previous failures, but without changes, we may not remain so 
fortunate for long.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me join you in welcome the witnesses and thank them not only 
for their testimony today but for their extraordinary service 
to the Nation. And I know they will provide insights that will 
better help us deal with these very complex problems that we 
face.
    As Secretary Bob Gates said before this committee in 
October, Americans, including all too often our leaders, regard 
international crises and military conflict as aberrations when, 
in fact and sad to say, they are the norm.
    He went on to further state, while we may not be interested 
in aggressors, terrorists, revanchists, and expansionists half 
way around the world, they ultimately are always interested in 
us or our interests or our allies and friends.
    And Secretary Gates' admonition has reverberated throughout 
our hearings these past few months. The Department of Defense 
is facing many complicated and rapidly evolving challenges. We 
have seen how violent extremist organizations are able to 
promote the destructive agendas and carry out attacks against 
the United States, our allies, and our respective interests. In 
Iraq and Syria, the breakdown of a nation-state system has 
allowed the reemergence of centuries old divisions, creating a 
vastly complex situation. At the same time, Russia continues 
its provocative behavior in Europe while also deploying Russian 
troops and military equipment to Syria to directly support the 
failing Assad regime. Likewise, China's assertive behavior in 
the South China Sea reflects both its desire to assert great 
power status and a challenge to international norms, including 
the freedom of navigation. Compound these issues, and the age 
of nuclear proliferation and global instability becomes even 
more dangerous.
    It is in this context that previous witnesses before this 
committee have testified that the Department's organization and 
processes are not flexible enough to respond in a timely 
manner. For example, Eliot Cohen outlined how the Department 
currently produces strategy documents on a fixed schedule and 
stated that a much better system would be something like the 
white papers produced by the Australian and French systems, not 
on a regular basis but in reaction to major international 
developments and composed by small special commissions that 
include outsiders, as well as bureaucrats.
    In addition to how the Department develops defense policy 
and military strategy to respond to evolving threats, I would 
also welcome the witnesses' views on whether or not changes are 
needed to the Department's force planning process, if the 
current combatant command structure engenders effective 
military operations, and whether the size and number of defense 
agencies and field activities and other headquarters functions 
should be consolidated or eliminated.
    Lastly, while not fully within this committee's 
jurisdiction, I would be interested in the views of our 
witnesses on the current interagency structure for national 
security and whether changes in that area should also be 
considered.
    These are complex, multifaceted issues that do not offer 
easy or quick solutions. Again, I look forward to hearing from 
each of our witnesses for their perspectives and thank them for 
their service.
    And thank you, Mr. Chairman.
    Chairman McCain. Secretary Flournoy?

 STATEMENT OF HON. MICHELE A. FLOURNOY, FORMER UNDER SECRETARY 
                     OF DEFENSE FOR POLICY

    Ms. Flournoy. Mr. Chairman, Senator Reed, distinguished 
members of the committee, thank you so much for inviting us 
here to testify before you. And I applaud this committee's 
effort to take a hard look at the Goldwater-Nichols legislation 
30 years after its passage and to consider a broad range of 
defense reforms. I believe that defense reform is absolutely 
critical to ensuring that we have a military that can 
underwrite the U.S. indispensable leadership role in a very 
complex and tumultuous environment.
    The perspectives I offer today really come from serving two 
different administrations in the Pentagon, five different 
Secretaries of Defense from my perch at a defense-oriented 
think tank, but also from the time I have spent in the private 
sector looking at organizational best practices and so forth.
    This is a very target-rich environment. It would be hard to 
cover all of the range of defense reform issues that I hope 
this committee will address in a single session, but I just 
want to highlight five problems that I have seen particularly 
in the area of strategy and planning and policy.
    The first is what I call the tyranny of consensus and the 
duplication of effort across staffs. I think the emphasis on 
consensus, finding what we can all agree on, sort of watering 
down solutions to the lowest common denominator has really 
become quite pervasive in the Pentagon, sometimes in OSD 
[Office of the Secretary of Defense] but particularly in the 
Joint Staff process, as the different perspectives from the 
services, the COCOMs [Combatant Commands], and others are 
brought into discussion.
    I think this overemphasis on jointness in policy actually 
undermines the Department's ability to respond quickly and 
effectively and strategically to some of the challenges we 
face. That emphasis or overemphasis on consensus is further 
complicated by what I see as a lack of role clarity between 
OSD, Joint Staff, COCOM staffs, and sometimes the services. I 
saw this in my perch as Under Secretary of Defense for Policy 
where frequently even though the OSD clearly had the policy 
lead, there were more officers working a given policy issue in 
the Joint Staff and on the COCOM staffs than there were on the 
policy staff. And this is across many functional areas, whether 
it is intelligence policy, logistics, a whole range of areas 
where there is a lot of duplication and a lot of confusion 
about who has what role and what responsibility.
    When you look at the Joint Staff and the Office of the 
Chairman, it has grown to nearly 4,000 people. That is 10 times 
what it was when the Defense Reorganization Act was passed in 
1958. I actually think the Chairman and the Secretary would be 
better served by a smaller and more strategic joint staff that 
was focused predominantly on the Chairman's core function, 
which is providing best military advice to the Secretary and to 
the President.
    Similarly, the COCOM staffs collectively have now burgeoned 
to over 38,000 people. I think they too are ripe for a real 
scrub in terms of the breadth of their functions and the level 
of duplication with the Joint Staff and with OSD.
    The second key problem is what I would consider a broken 
strategy development process. I am the veteran of many QDRs. I 
have the bruises and scars to prove it. But I think as well 
intentioned as the QDR was as a mandate from Congress, I think 
it has in fact in practice become a very routinized, bottom-up 
staff exercise. It includes hundreds of participants, thousands 
of man-hours, and really does not produce the desired result. 
What is really needed is a top-down, leader-driven exercise 
that focuses on clarifying strategy. What are our priorities? 
What are the hard choices? How do we allocate risk?
    I would encourage this committee to look at overhauling the 
QDR legislation. I know there was some new language in the 
NDAA, but the key pieces that I see are, first, moving to a 
more leader-driven process rather than a staff exercise, and 
two, having the primary product be a classified strategy 
document that actually has the teeth to guide resource 
allocation and prioritization within the Department. You may 
also want to still publish the occasional white paper 
unclassified explanation of our defense strategy for outside 
audiences, but the key piece that is most important for the 
Department and its management is the classified piece.
    The third problem I would highlight is a flawed force 
planning process. This is the process that translates strategy 
into the forces we will need for the future. And here the 
tyranny of the consensus is very much apparent. As we look at 
how this process is done, every step of the way from scenario 
design to analysis, to insight, all of that is governed far 
more by reaching the consensus among parochial interests than 
it is guided by pursuing the national interest. The current 
process is antithetical to the kind of competing of ideas and 
innovation that the Department really needs to grapple with the 
key questions, which are how are new technologies and 
capabilities going to change the nature of warfare in the 
future. How will we develop those new concepts to prevail in a 
more contested and difficult environment? How are we going to 
make the necessary tradeoffs in programming and budgeting?
    What we need and I think what is possible is the creation 
of a safe space by the Secretary and the Deputy Secretary to 
really have a process where all stakeholders can bring 
solutions, ideas, concepts to the table to compete on how best 
to solve a given problem, whether it is the COCOMs, the Joint 
Staff, the services, and also industry who have great insights 
about what is technologically feasible.
    This may not necessarily require legislative change but it 
does require leader focus and change within the Department if 
we are going to get the kind of force development and 
innovation that the Department needs to keep pace with the 
threats that we are facing.
    The fourth key problem I would highlight is bloated 
headquarters that undermine both performance and agility. In 
recent years, headquarters have continued to grow even as the 
active duty force has shrunk. The Office of the Secretary of 
Defense now has more than 5,000 people; Joint Staff, as I 
mentioned, nearly 4,000; COCOMs, 38,000. In total, if you add 
in the defense agencies, you have 240,000 people, excluding 
contractors, at a cost of $113 billion. It is almost 20 percent 
of the DOD budget.
    And this is not just a matter of inefficiency. It is also a 
matter of effectiveness. When you go out into the private 
sector, there is case after case where you document that 
bloated headquarters' slow decision-making push too many 
decisions up the chain rather than resolving them at the lowest 
possible level, incentivize risk-averse behaviors, undermine 
organizational performance, and compromise agility. I think the 
same is certainly true in government. And what is more is all 
these resources that are duplicative take resources away from 
investment in the warfighter, which is the DOD's primary 
mission.
    So I would really encourage this committee and the Congress 
more broadly to take several steps in this regard.
    First, strongly encourage the Secretary of Defense to 
conduct a comprehensive and systematic effort to delayer 
headquarters staffs across the defense agency. When I say 
delayering, I am talking about a systematic design effort that 
goes through, eliminates unnecessary layers of bureaucracy, 
optimizes spans of control. There are proven methodologies for 
doing this that have been used across both the private sector 
and the public sector. I would start with OSD, the Joint Staff, 
move to the COCOMs, the service secretariats, and then the 
defense agencies.
    Second, I think the Congress needs to give this Secretary 
of Defense the kinds of authorities that past Secretaries of 
Defense have been given to manage a reshaping of the 
organization in the workforce, things like reduction force 
authority, things like meaningful retirement and separation 
incentive pays, including things like base realignment and 
closure. And I know we can get to that in the Q and A if you 
would like.
    The third thing is I think that Congress should actually 
direct the Secretary to commission a study by an outside firm 
that has both deep private sector experience and familiarity 
with the unique requirements of the defense enterprise to look 
at these areas of overlapping functions, how do we better 
integrate and streamline staffs within the Department. This 
could look at the service secretariats versus service chiefs' 
staffs. It could look at OSD and Joint Staff functional area 
overlaps. It could even look at areas like transportation and 
logistics where all of the leading private sector firms have 
integrated those functions, yet in the Department of Defense, 
we have two separate organizations managing those.
    And lastly I would say I think we all need to take a hard 
look at the combatant command staffs. I personally believe it 
is time to actually reduce the number of COCOMs--there are 
areas of consolidation that would make sense--streamline the 
subcommand and service component structure and also look at the 
size and composition based on a honing of the functions that we 
want the staffs to perform.
    I think the last piece I would just foot-stomp is the 
importance of providing the Secretary with the authorities he 
needs to actually make these changes. I have mentioned some of 
them. One of the ones I want to highlight because it is in this 
committee's direct control is a requirement that is placed on 
all DOD nominees being considered that is different from what 
is being placed on other agency nominees, and that is in most 
agencies, to avoid conflict of interest problems, you are 
allowed to put your assets and your holdings in a blind trust 
and then, if necessary, recuse yourself from certain decisions. 
The SASC [Senate Armed Services Committee] historically has 
said, no, that is not enough. You actually have to divest of 
your assets in any company that does business with the 
Pentagon. The result of that is that you basically 
disincentivize anyone from the private sector who has the kind 
of management acumen and experience running large organizations 
to come in and serve in the Department of Defense. And we 
lament that lack of expertise and that lack of acumen in terms 
of the people we are able to recruit to serve, and yet, some of 
the rules in place have prevented that kind of service. So I 
would just encourage you, before the next presidential 
transition, to take a hard look at that rule.
    I am out of time, but let me just conclude by saying a lot 
of these problems can be addressed by means other than revising 
the fundamental legislation of Goldwater-Nichols. I personally 
believe a lot of the core elements of Goldwater-Nichols--they 
got it right. The powers given to the Secretary of Defense, the 
role of the Chairman not only as the military advisor to the 
Secretary but also to the President, ensuring that the 
President has the ability to hear military dissent if it exists 
before he makes a national security decision.
    The one thing that I will say I would not like to see that 
some others who have testified before you have recommended is 
reinserting the Chairman in the operational chain of command. 
In my view, giving the Chairman decision-making authority over 
the COCOMs and services would come at a high cost, essentially 
commensurately reducing the authorities of the Secretary of 
Defense. Decisions about where to deploy forces, when and how 
to use force in conducting military operations are 
fundamentally decisions about where, when, and how the United 
States should use its power and expend its blood and treasure. 
In a vibrant democracy like ours, those decisions should remain 
in civilian hands, not the hands of military authorities.
    So let me conclude there, and I am happy to entertain your 
questions. Thank you.
    [The prepared statement of Ms. Flournoy follows:]
    
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
       
           
      
    Chairman McCain. Thank you.
    Secretary Vickers?

STATEMENT OF HON. MICHAEL G. VICKERS, FORMER UNDER SECRETARY OF 
                    DEFENSE FOR INTELLIGENCE

    Mr. Vickers. Chairman McCain, Ranking Member Reed, 
distinguished members of the committee, it is a privilege and a 
pleasure to be with the Senate Armed Services Committee this 
morning to discuss how the Pentagon might improve its 
development of policy, strategy, and plans.
    It is an additional pleasure to be joined by my former 
colleagues, Michele Flournoy and Jeff Eggers. Let me say 
Michele and I are almost always of like minds, and I strongly 
endorse everything she said.
    It has been 7 months since I retired from my position as 
USD(I) [Under Secretary of Defense for Intelligence]. I miss 
the great privilege of defending my country, and as astonishing 
as this may sound to some, I miss all of you too.
    [Laughter.]
    30 years ago, a lack of joint interoperability and 
interdependence and insufficient attention given to our special 
operations forces provided the impetus for major defense 
reform. Today, the need for defense reform is no less urgent.
    In my view, defense reform today needs to address two 
critical problems, one managerial, how to reverse the steady 
decline in combat power that stems from rising personnel and 
weapons costs and excessive overhead, and the other strategic, 
how to get better strategy and therefore more effective 
military operations at the higher levels of war.
    As Dr. Kissinger and others have noted, we are engaged in 
three long-term conflicts or competitions in the Middle East 
with global jihadi groups and Iran, in Europe with Russia, and 
in Asia with China. Mr. Chairman, as you noted in your opening 
statement, these three strategic challenges are highly 
asymmetric and two are wholly or predominantly unconventional. 
Each of our adversaries and competitors are able to impose 
significant costs on us, and each challenge will likely last 
for decades.
    We were as much as a decade and a half late in responding 
to China's anti-access/area-denial challenge to our power 
projection capabilities, but now I believe we are generally 
heading in the right direction. We seem flummoxed by and self-
deterred in our response to Russian indirect and direct 
aggression, and although it is certainly not from a lack of 
trying, we are far from having a strategy that can bring 
stability to the Middle East.
    We have had considerable success at the tactical and 
operational levels, particularly in the counterterrorism arena 
and in turning around at least temporarily the situations in 
Iraq and Afghanistan, but much less at the strategic level. It 
is not enough to win battles or even campaigns. We must win our 
wars and our strategic competitions, and victory must lead to 
the establishment of the regional and international orders that 
we seek. Our need for good strategy is more important than ever 
and our organizational capability to produce it is uneven at 
best and very much personality-dependent.
    Let me say a few words about good and bad strategy. In my 
written statement, I described what I think good strategy is 
and I provided several examples from our history of the past 30 
years that I think constitute it and so I will not belabor it 
now.
    Bad strategies result from a poor understanding of the 
strategic and operational environment, unrealistic games, or 
confusing goals with strategy, inappropriate ways, insufficient 
means, and inadequate follow-through. But more than anything, 
they stem from an inability to identify the decisive element 
that confers enduring advantage and then to focus actions and 
resources on it.
    The reasons why we frequently produce bad strategy are 
insufficient strategic education, lack of relevant operational 
expertise and strategy-related experience among many of our 
practitioners, as Michele noted, insufficient competition and 
rigor in the marketplace of strategic ideas, and failure to 
bring Congress along as a partner in the development and 
implementation strategy. The most successful strategies that I 
have been associated with in my career have been when we have 
had Congress as a real core partner.
    Bad strategy affects not just current operations but future 
ones as well. As Secretary Gates has observed, the Department 
all too frequently prepares for the wrong war and prioritizes 
capabilities for imaginary wars over real ones.
    Now, let me offer a couple of ideas that dovetail with what 
Michele said that could improve the Department's making of 
strategy.
    Let me first emphasize my core point: good strategy 
requires good strategists. It is just hard to get away from 
that. Strategy is hard. It looks deceptively simple. It is 
anything but, particularly as you move up from tactics to 
strategy and grand strategy.
    The first is to revamp the selection and promotion of our 
general and flag officers to give greater weight to strategic 
education and development in the course of their career. We are 
packing too much in the careers of every officer, and today it 
is hard for me to see how we will produce in the future four-
star commanders who have Ph.D.s like General Petraeus and Jim 
Stavridis or have significant foreign expertise, as General 
Abizaid and some others. The system just simply does not allow 
that anymore.
    With our one-size-fits-all line officer or personnel 
management system, we have sacrificed the strategic education 
of our officer for tactical and joint gains, which are very, 
very necessary but not sufficient. It is far less likely going 
forward, as I said, that we will produce officers who have 
attained a Ph.D., are proficient in foreign languages and 
knowledge about areas of strategic interest to the United 
States.
    We are paradoxically plagued by both too much and too 
little joint experience in our officer corps. For some 
promising officers, we should consider relaxing the joint duty 
assignment until they reach the general officer or flag officer 
rank, and within our services, we should seek to produce a mix 
of highly tactically proficient and then somewhat less 
tactically proficient but still tactically proficient but 
strategically educated officers that are on the command track 
and compete to our highest levels of military office.
    The second idea, which again dovetails with something 
Michele said, is to rigorously select and educate a joint corps 
of operational strategists and transition the current joint 
staff, which does all things for all people, into a real joint 
general staff focused on the preparation and conduct of war.
    Let me draw one difference. On the civilian realm and 
civilian control, as Michele said, strategy is usually set by a 
few people at the top or should be. In the military, it very 
much depends on having a talented action officer that provides 
impetus up to the top, and I do not really see that system 
changing. It just can be reformed.
    A joint general staff would differ from the current general 
staff in several important ways: in the rigor of selection and 
strategic education; in their longevity of position; in their 
independence from their services once they go in this area, 
although they would maintain their operational currency; and in 
their exclusive focus on war and strategy.
    Let me close with a few thoughts on improving strategy 
across the broader national security establishment. The 
National Security Council system works very well when it 
focuses on big questions of strategy and crisis management. I 
do not personally believe that a Goldwater-Nichols for the 
interagency would be wise. In fact, I think it would perpetuate 
some of the strategy pathologies we have in the Department 
across the interagency.
    Good strategy and effective operations are greatly enabled 
by good intelligence and the operational integration of the 
Central Intelligence Agency and the Department of Defense in 
recent years has significantly improved our operational 
effectiveness in several areas. And I am sure I am going to 
sound parochial in saying this, but at the margin, given the 
challenges we face, their asymmetric and long-term character, 
we will likely see a larger return at the margin, dollar for 
dollar, in our strategic effectiveness by providing additional 
resources to national intelligence than we will by providing 
equivalent amount for defense. And of course, I am for both.
    Thank you very much for the opportunity to appear before 
you today. I look forward to your questions.
    [The prepared statement of Mr. Vickers follows:]

                Prepared Statement by Michael G. Vickers
    Chairman McCain, Ranking Member Reed, it is a privilege and 
pleasure to be with the Senate Armed Services Committee this morning to 
discuss how the Pentagon might improve its development of policy, 
strategy and plans. It is an additional pleasure to be joined by my 
former colleagues, Michele Flournoy and Jeff Eggers.
    It has been seven months since I've left my position as USD(I). I 
miss the great privilege of defending my country, and as astonishing as 
this may sound, I miss you all as well.
    I have followed with great interest the Committee's hearings on 
U.S. National Security Strategy and Defense Organization. I commend you 
for taking on the critical task of Defense Reform.
    Thirty years ago, a lack of joint interoperability and 
interdependence within the armed services and insufficient attention 
given to our Special Operations Forces provided the impetus for major 
defense reform. Today, the need for defense reform is no less urgent.
    A major problem that must addressed today is that rising personnel 
and weapons costs, and excessive bases and headquarters staffs are 
generating decreasing strategic and operational returns on our defense 
investment, resulting in less and less combat power available for the 
defense of our national security interests. Second, and even more 
urgent, we are not winning our nation's wars. We are winning battles 
and campaigns, but not our wars.
    As I will discuss momentarily, we are engaged in three long-term 
conflicts or competitions for which we have yet to devise effective 
strategies. I have focused my statement this morning on our 
difficulties with developing good strategy, since policy and plans, 
and, indeed, effective military operations flow from good strategy.
    As Dr. Kissinger and other witnesses have testified, we face major 
challenges to our national security interests in the Middle East, in 
Europe and in Asia.

    <bullet>  In the Middle East, the old order is collapsing. There is 
an assault on the international system by the Islamic State of Iraq and 
the Levant, al-Qaeda, and associated global jihadi groups; expanding 
sectarian conflict; and a widening proxy war between Saudi Arabia, 
Turkey and its allies, and Iran and its allies.
    <bullet>  In Europe, a revanchist Russia has successfully waged 
hybrid warfare against Georgia and Ukraine, and seeks to reorient the 
continent away from the United States.
    <bullet>  In Asia, a rising China is asserting its growing power 
across the region, and anticipates that within a few decades that it 
will surpass the United States as the leading power in the 
international system.

    These three strategic challenges are highly asymmetric, and two are 
largely unconventional. Each of our adversaries and competitors are 
able to impose significant costs on us. Each challenge will likely last 
for decades. We are not postured as a Department, intellectually or 
organizationally, for these highly asymmetric and largely 
unconventional long-term challenges. We are also in the midst of an 
ongoing revolution in technology that will have profound consequences 
for strategic balances. We must account for this ongoing revolution in 
our defense strategy and investment.
    We will need to develop an array of strategies to deal with these 
challenges. Much as some might prefer, we cannot simply opt out. As my 
former boss and mentor, Bob Gates, told this Committee seven weeks ago, 
``while we may not be interested in aggressors, terrorists, revanchists 
and expansionists half a world away, they ultimately are always 
interested in us--or in our interests, allies and friends.'' And, 
unfortunately, our strategic effectiveness across administrations from 
both parties has not been at the level that will be needed going 
forward.
    We were as much as a decade and a half late in responding to 
China's anti-access/area-denial challenge to our power projection 
capabilities, though, now, I believe, we are generally heading in the 
right direction. We seem flummoxed by and self-deterred in our response 
to Russian indirect and direct aggression. And, although it's certainly 
not from a lack of trying, we are far from having a strategy that can 
bring stability to the Middle East.
    We have had considerable success at the tactical and operational 
levels, particularly in the counterterrorism arena and in turning 
around the situations in Iraq and Afghanistan, but much less at the 
strategic level. It is not enough to win battles or even campaigns. We 
must win our wars, and victory in war must lead to the establishment of 
the regional and international orders that we seek. We must develop and 
field capabilities and demonstrate the will to use them, moreover, to 
restore the deterrence component of our strategy.
                       good strategy/bad strategy
    As Richard Rumelt observes in his excellent book, Good Strategy/Bad 
Strategy, good strategy is unfortunately the exception and not the 
rule. Good strategy almost always looks simple and obvious, but it is 
not.
    Good strategy is made by good strategists. A talented leader 
identifies the critical issues in the situation, pivot points that can 
multiply the effectiveness of his effort, and then concentrates action 
and resources on them. Good strategy doesn't just apply one's strengths 
against an opponent's weaknesses or against the most promising 
opportunity; it creates strength, both short and long-term, often from 
unexpected or non-obvious sources. Good strategy aims to force an 
opponent to play our game, sometimes by changing the rules of the game, 
or to beat him at his own game when he overreaches and makes himself 
vulnerable. And, important aspects of strategy, particularly in the 
national security realm, must be developed in secret to be effective.
    I was privileged during my career to be part of two efforts that 
represent what I believe good strategy is.
    During President Reagan's second term, the administration leveraged 
American economic and technological superiority to force a competition 
the Soviets knew they could not win without major reform, and we beat 
the Soviets at the own unconventional warfare and covert action game by 
driving the Red Army out of Afghanistan and supporting Solidarity in 
Poland. Importantly, the Regan administration and its George H.W. Bush 
successor sustained both efforts until they were victorious, despite a 
warming in U.S.-Soviet relations.
    Late during President George W. Bush's second term and through 
President Obama's first term, the administrations adopted and sustained 
an effective strategy against core al-Qaeda in the Pakistan border 
region that has brought core al-Qaeda, though not its franchises, 
closer to operational defeat than the group has ever been.
    There are of course numerous other examples, large and small, of 
good strategy since the end of the Second World War: the strategies of 
containment, rollback, and economic and technological superiority that 
we pursued in varying ways through the Cold War; the opening to China, 
which we leveraged to great effect in our covert war with the Soviets 
in Afghanistan; the shift to a deep/follow-on forces attack strategy 
against Soviet forces in Europe during the late 1970s; the strategy to 
drive Iraqi forces out of Kuwait; the air strategy that led to the 
Dayton Peace Accords; and the air-irregular ground campaign that 
toppled the Taliban after the 9/11 attacks.
    There are others, and an even greater number of examples of bad 
strategies that, in the interest of time, I won't go into. Bad 
strategies result from a poor understanding of the strategic and 
operational environment, unrealistic aims, inappropriate ways, 
insufficient means, and inadequate follow through. But more than 
anything, they stem from an inability to identify a decisive element 
that confers enduring advantage, and then to focus actions and 
resources on it. As Clausewitz noted, strategy gets more difficult the 
farther one moves from tactics to operations to strategy and to grand 
strategy. With respect to the Department of Defense, examples of good 
and bad strategy are evident in both the conduct of war and in the 
preparation for war, in operational plans and in force development. The 
latter results in a Department that all too frequently prepares for the 
wrong war and prioritizes capabilities for imaginary wars over real 
ones.
          improving strategy within the department of defense
    I have spent my career developing and implementing strategy and 
conducting and overseeing operations. I've spent far less time thinking 
about how to make the making of strategy better. With that in mind, 
I'll offer a few thoughts on reforms you might consider that could 
improve the making of strategy (and policy and plans along with it) 
within the Department of Defense and the U.S. National Security 
Establishment more broadly.
    Let me return briefly to my core themes: good strategy is made by 
good strategists; you can mandate strategy, as we have done with a 
series of national security strategies and quadrennial defense reviews, 
but you can't mandate good strategy; good strategy is the exception 
rather than the rule; the problem is getting worse and more 
consequential as challenges to our national security significantly 
increase; the problem affects not only strategic and operational 
planning but also force development; and Goldwater-Nichols has done 
very little to address our growing strategy deficit; it has, in fact, 
contributed to it.
    I have described the sources of bad strategy. The structural and 
systemic causes that often result in bad strategy in the Department are 
insufficient strategic education, lack of relevant operational 
expertise and strategy-related experience among practitioners, 
insufficient competition and rigor in the marketplace of strategic 
ideas, and failure to bring the Congress along as a partner in the 
development and implementation of strategy.
    There are a number of ideas, several of which I had a hand in 
developing in an earlier stage of my career, that have been proposed by 
previous witnesses that could address some of the structural and 
systemic causes that frequently result in bad strategy. As such, they 
are at least worth exploring as you continue your review of potential 
defense reforms.
    These include: remaking our system for selecting and promoting 
general officers to increase the odds that strategic leaders will rise 
to the top; making a much larger investment in the strategic education 
of select members of the officer corps; transforming the Joint Staff 
into a Joint General Staff with an exclusive focus on the conduct of 
war and the preparation for war; transferring responsibility for 
certain warfare areas (counterterrorism, special operations and cyber) 
to functional combatant commands--CIA, for example, has a functional 
organization in charge of its global CT operations; elevating Cyber 
Command to a Unified Command; establishing additional standing 
warfighting joint task forces and reorienting regional CoComs on 
military diplomacy; strengthening the role of the Services in 
operational planning and encouraging a greater degree of inter-service 
and intra-service competition in the development of operational 
concepts; establishing much closer linkages among strategic and 
operational planning, intelligence assessments and force planning; 
establishing additional Services (Special Operations, cyber and space); 
and consolidating staffs (OSD and the JS and those within the Military 
Departments). Most of these ideas have as their animating principle the 
development of deeper strategic expertise within the Department--
through rigorous strategic education and career development, through 
specialization, and through healthy competition.
    Several of these proposed reforms may have merit, and there may be 
important synergies that can be realized by adopting several of them as 
part of a coherent strategy. Some may be alternative courses of action, 
e.g., establishing additional Services versus transferring operational 
responsibility to Service-like organizations (SOCOM and CYBERCOM) to 
gain greater operational expertise in certain areas of military 
strategy. (In this vein, Space Command could also be reestablished.) 
But each of these ideas has drawbacks that must be carefully assessed.
    While I'm admittedly generally skeptical of organizational change 
as a driver for strategy improvement, something must be done. 
Accordingly, I think the biggest direct strategic bang for the buck 
could come from revamping selection and promotion of general and flag 
officers, and from rigorously selecting and educating a corps of joint 
operational strategists and transforming the Joint Staff into a real 
Joint General Staff. Good strategy requires good strategists.
    During the past three and a half decades, our armed forces have 
become far more proficient at the tactical level of war. They have also 
become more jointly interoperable and interdependent. These are good 
things. That increased tactical proficiency and joint effectiveness has 
come at a strategic cost, however. With our ``one size fits all'' line 
officer personnel management system, we have sacrificed the strategic 
education of our senior officer corps for these tactical and joint 
gains. It is far less likely going forward that we will produce four-
star combat arms officers who have attained a Ph.D. or who are 
proficient in foreign languages and knowledgeable about foreign areas 
of strategic interest to the United States. That means no more Dave 
Petraeus's, no more Jim Stavridis's and no more John Abizaid's. If 
continued, this practice over time will reduce our strategic 
effectiveness. We are paradoxically plagued by both too much and too 
little joint experience and tactical expertise in our officer corps.
    Good military strategists can be military or civilian, and on the 
military side, they can be produced in several ways. Indeed, to 
increase our overall strategic effectiveness, we should pursue several 
diverse paths. For some promising officers, we should consider relaxing 
the joint duty requirement until they reach general officer/flag 
officer rank. This would allow them to pursue strategic education, gain 
important foreign experience or become masters in their domain of 
warfare. Within our Services, we should seek to produce a mix of highly 
tactically proficient and somewhat less tactically proficient but 
strategically educated officers on the command track. To keep pace with 
the ongoing technological revolution, we will also need command track 
general and flag officers with doctorates in the STEM disciplines.
    A Joint General Staff would differ from the current Joint Staff in 
several important ways. First, its members, after demonstrating 
operational proficiency, would have to pass a rigorous selection 
process that would seek to identify those with potential to serve as 
strategists, and then would have to complete several years of graduate 
level strategic education. Second, as opposed to a single two-to-three 
year tour in a joint assignment, Joint General Staff officers would 
spend the remaining two-thirds to three-quarters of their careers in 
the Joint General Staff, rotating back to their Services of origin 
periodically to maintain operational currency. Third, to ensure their 
strategic independence, the Chairman of the Joint Chiefs, dual-hatted 
as the Chief of the Joint General Staff, and not their parent Services, 
would control the promotions of JGS officers. Fourth, a Joint General 
Staff would be focused exclusively on the conduct and preparation for 
war at the strategic and operational levels as opposed to the wide and 
duplicative range of broad policy and staff functions the current Joint 
Staff engages in.
   improving strategy across the u.s. national security establishment
    Although it is beyond the remit of this hearing, I would like to 
close with a few thoughts about improving strategy across the broader 
U.S. National Security Establishment.
    The National Security Council system works well when it focuses on 
big questions of strategy and crisis management. Problems in strategy 
at the national level usually stem from not presenting clear strategic 
alternatives with their likely consequences to the President, and/or 
from not having deep and relevant operational expertise directly 
available to the President when needed. Accordingly, I do not think a 
``Goldwater-Nichols for the Interagency'' would be wise. In fact, I 
believe it would likely make our strategy problem worse, as it would 
replicate the sources of bad strategy within DoD across the 
interagency. To repeat for a final time what has by now become my 
mantra, good strategy comes from having good strategists in the right 
positions.
    I'd like to close by noting that good strategy and effective 
operations are greatly enabled by good intelligence, and that the 
operational integration of CIA and DoD capabilities has significantly 
improved our strategic effectiveness in several areas in recent years. 
I'm sure I will sound parochial in saying this, but at the margin, we 
will see a larger return in strategic effectiveness by providing 
additional resources to national intelligence than we will by providing 
equivalent amounts to defense.
    Thank you again for the opportunity to appear before you today. I 
look forward to your questions.
    Michael Vickers, a former Special Forces Officer and CIA Operations 
Officer, was Under Secretary of Defense for Intelligence, 2011-2015, 
and Assistant Secretary of Defense for Special Operations, Low-
Intensity Conflict and Interdependent Capabilities, 2007-2011.

    Chairman McCain. Thank you.
    Commander Eggers?

STATEMENT OF COMMANDER JEFFREY W. EGGERS, USN (RETIRED), FORMER 
   SPECIAL ASSISTANT TO THE PRESIDENT FOR NATIONAL SECURITY 
           AFFAIRS AND FORMER U.S. NAVY SEAL OFFICER

    Mr. Eggers. Thank you, Chairman McCain, Ranking Member 
Reed, and members of the committee. It is an honor and a 
privilege to testify on this important topic. And I am honored 
to be joined by my former colleagues, Michele Flournoy and 
Michael Vickers.
    My testimony today is, of course, informed by my own 
experiences as a naval officer, policy advisor to several 
senior defense officials, a National Security staff member 
across two administrations, and as well my recent public policy 
research on the intersection of organizational performance and 
behavioral science.
    Goldwater-Nichols was, of course, informed and catalyzed by 
the failures of that generation. And my sense is that our 
modern shortcomings are equally deserving of reform. So I 
appreciate the significance of this topic and this opportunity.
    My experience across both ends of the policy spectrum is 
that the defense policy and strategy apparatus that employs our 
world-class military is by comparison relatively weak. So my 
testimony today is focused on what I consider to be the 
greatest challenge to the future of our defense policy, and it 
is not any particular threat, nor is it how we are organized. 
Rather, I see our most significant challenge to defense policy 
as simply how we think and the most significant future threat 
we face as a failure to adapt in the future.
    Amidst budgetary pressures and a very rapidly dynamically 
changing future environment, it is imperative that we invest in 
the concept of intellectual adaptability. This is particularly 
important because we have demonstrated an inability to actually 
predict the course of future threats. Secretary Gates perhaps 
said it best. Quote: When it comes to predicting the nature and 
location of our next military engagements, since Vietnam our 
record has been perfect. We have never once gotten it right.
    So making the case for intellectual adaptability is quite 
easy. I think the hard part is designing change that actually 
results in intellectual adaptability. The good news is the 
Pentagon has gone a great way to internalize this concept and 
institutionalize it within their current strategic planning 
lexicon.
    So I would first make a few points about how adaptability 
relates to people and technology.
    First is that adaptability relates to an organization's 
culture and therefore and ultimately its people. As General 
Dempsey once said, if we do not get the people right, the rest 
of it will not matter. We are going to put the country at risk.
    It is in this light that I believe Secretary Carter's Force 
of the Future initiative should be aggressively implemented, 
but the proposals are likely to meet some dilution as they go 
through the cultural resistance to change.
    Second, the strategic potential in this initiative of Force 
of the Future is not simply in controlling costs. Rather, it is 
enhancing the adaptability of the force. We must shift our way 
of thinking from retention of talent to the development of 
talent.
    Third, adaptability must not be misconstrued as how we 
acquire or buy technology. Even for DARPA [Defense Advanced 
Research Projects Agency], which I see as one of the world's 
greatest intellectual innovation firms, their great history of 
innovation rests instead on their personnel system with their 
special hiring authority in a very rigorous intellectual 
process.
    Fourth, intellectual adaptability will require rebalancing 
the military's emphasis on operational employment with academic 
development. Generally speaking, the more time spent in 
operational units, the more promising one's military career, 
which is a disincentive to pursue experiences that broaden and 
build new ways of thinking such as civilian schools.
    And fifth and finally, the command-centric military 
promotion system results in a lack of skill differentiation 
that dulls intellectual adaptability. Command track officers 
who come to staff jobs to check the box so to speak for their 
joint requirement have little incentive to challenge the 
mainstream analysis of that institution lest they jeopardize 
their operational career.
    In exploring an adaptable force that is more open to new 
ways of thinking, my statement highlights cultural factors that 
generate a wider array of new ideas, improve upon a risk-averse 
culture, and can do things to inoculate against cognitive bias. 
We must do better at seeing the world as it is vice how we wish 
it were or thought it was going to be.
    Along these lines, my statement offers two broad sets of 
recommendations to promote intellectual adaptability in policy 
and strategy, which I will summarize. The first set speaks to 
military personnel management and the prioritization of people 
and their cognitive development.
    One, move beyond the joint concept by building senior 
military leaders in the future that have an abundance of 
national security experience outside of Defense.
    Two, prioritize academic growth by making such broadening 
tours more common by the time people reach the 06 milestone 
with a significant expansion of civilian school opportunities.
    Three, promote differentiation among our office community 
by balancing opportunity between a dominant command track 
career track and the non-command tracks.
    Four, promote a meritocracy in military promotion by making 
more flexible both the early promote system and the up or out 
tradition.
    The second set of reforms is applicable to the civilian 
side of the defense policy community with three 
recommendations.
    First, institutionalize an independent red team of experts 
and outsiders that are empowered to rigorously test the policy 
assumptions and to present alternative perspectives into the 
process.
    Two, separate the policy development and implementation 
functions so that the policy development personnel can be 
protected from the burden and distraction of day-to-day 
operational crises.
    And third and finally, enhance the development of the 
civilian policy professional community with specialized 
training to enhance critical and divergent thinking in the 
policy development and assessment process.
    I greatly appreciate the opportunity to testify and offer 
these thoughts today. The uncertain nature of our future puts 
the need for humility into our planning and puts a clear 
premium on the concept of adaptive thinking and being more open 
to how we employ the resources we will have in the future. As 
always, such reform will be disruptive and costly and entail 
some acceptance of risk. However, in my view such risk will be 
more manageable and more acceptable than the increasing costs 
of a future failure to adapt.
    I hope my testimony serves useful to the purposes of this 
committee, and I look forward to assisting the committee and I 
definitely look forward to your questions. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Eggers follows:]

                 Prepared Statement by CDR Jeff Eggers
                              introduction
    Chairman McCain, Ranking Member Reed, and committee members, I 
appreciate the opportunity to testify in this series of hearings on how 
the American defense establishment might be improved. And I'm honored 
to join my former colleagues Michele Flournoy and Michael Vickers.
    After the painful and instructive failures of Vietnam, Grenada, and 
Operation EAGLE CLAW, Senators Nichols and Goldwater had the courage to 
overhaul our defense establishment with the landmark legislation that 
bears their names. It is difficult to see with clarity today how our 
more recent struggles with the business of defense and our operations 
in South Asia, the Middle East and Northern Africa will compare as 
potential catalysts for change. While our contemporary policy 
shortcomings may not have garnered as many protests on the Mall or have 
been marked by highly publicized operational failure, my sense is that 
our modern shortcomings may be equally deserving of thoughtful reform.
    America both deserves and needs a defense establishment that 
considers policy and strategy in a way that lives up to the complex 
array of threats it faces and the extraordinary military it employs. 
The operation of a modern day nuclear submarine or Army brigade combat 
team are small miracles in themselves. Yet my experience--across both 
ends of the defense policy spectrum, first as a field operator and 
later as a policy advisor--is that the strategic policy planning 
apparatus that employs our operational assets is, by comparison, 
relatively weak. The greatest military in the world deserves a world-
class policy and strategy apparatus.
    Designing such a system, both for our defense and the government 
more broadly, is the basis of my current research at New America, where 
I am working to improve public policy through a better understanding of 
the intersection of organizational performance and behavioral science.
            the strategic challenge to future defense policy
    Many prior witnesses in this series have outlined how the rapidly 
shifting 21st century environment is making our 20th century models and 
tools obsolete. I couldn't agree more, and so I won't belabor those 
points.
    Moreover, I recognize fully that our defense policy challenges are 
rooted in the overarching national security process led by the national 
security staff. Defense reform needs to be nested within broader 
national security reform, but my statement today is constrained to 
issues within the purview of this committee.
    In this statement, I am focused on what I see as the most important 
challenge to the future of our defense policy. It is not how the 
Islamic State radicalizes our enemies, or how future adversaries tunnel 
through our cyber walls, whether Iran spins more centrifuges or whether 
Russia or China take their assertiveness to the next level. Nor is it 
fixing our broken acquisition system or rewiring command relationships 
within the Pentagon. These are all immensely important, but I believe 
that our greatest challenge is not what threat we may face, or even how 
we're organized.
    Instead, I see our greatest challenge as how we think, and our 
greatest potential threat as a future failure to adapt and be more open 
to new ways of thinking. Amidst a rapidly shifting and uncertain 
landscape, we can ill afford to be locked into old patterns of 
thinking. A failure to adapt could cause us to fail militarily and, 
more broadly, as a society.
    This does not reflect insufficient faith in American ingenuity and 
determination. Rather, that spirit of optimism is tempered by the 
humility of my experience in public service and an awareness of 
history. For nearly a century, the strategic privilege enjoyed by the 
United States was rooted in geographic advantage and an abundance of 
power, particularly in our resources and our technology. In such an 
era, the U.S. could more easily afford to be slower to adapt. During 
his military career, the future National Security Advisor Robert 
McFarlane wrote that ``having superior strategic military might has 
provided an enormous hedge for flabby thinking. We could afford less 
than optimal strategic planning because push was never going to come to 
shove. We have had the luxury of being able to be foolish.''
    We no longer have such luxury. With budgetary pressures, a shifting 
global landscape and a relative decline in global influence, we must 
improve our cognitive adaptability or suffer the consequence of failing 
to do so. As General Dempsey once testified, ``Our competitive 
advantage is our people and their adaptability . . . . Overmatch in 
size and technology matters, but the rate in which we can innovate and 
adapt relative to these non-state actors matters more. This is a 
generational challenge.''
                       the case for adaptability
    A 2010-2011 Defense Science Board defined adaptability as the 
``ability and willingness to anticipate the need for change, to prepare 
for that change, and to implement changes in a timely and effective 
manner in response to the surrounding environment.'' The concept of 
adaptability in defense planning is en vogue now, largely because it is 
seen as mitigating the risk posed by an uncertain and increasingly 
complex operating environment. In my experience, successful defense 
policy hinges on adaptability not just because we face an increasingly 
complex environment, but because we are consistently and profoundly 
unable, despite our best efforts, to accurately predict the future and 
the threats it will bring.
    General Mattis, the former commander of Central Command, once told 
this committee that ``as we look toward the future, I have been a 
horrible prophet. I have never fought anywhere I expected to in all my 
years.'' And Secretary Gates has perhaps said it best: ``when it comes 
to predicting the nature and location of our next military engagements, 
since Vietnam, our record has been perfect. We have never once gotten 
it right . . . '' We will always be tempted with predictions, but we 
should also learn to embrace uncertainty.
    Greater intellectual adaptability will not only better posture the 
U.S. against an uncertain future, it will also improve the rigor and 
fidelity with which we make decisions in defense policy amid a dynamic 
landscape. We will do better at seeing the world as it is, vice how we 
wish it were or thought it would be. And we'll be less prone to the 
logical fallacies that are often woven into human thinking.
    In my view, adaptability should be concerned with being more 
rigorous in our thinking, more open to new ideas and better prepared 
for change, whatever it may be. Because there is sometimes confusion 
between adaptability and the also-important versatility, I see 
intellectual adaptability as deriving from three critical aspects of 
how we think: intellectual innovation, or our ability to think 
creatively; intellectual integrity, or having the courage to challenge 
assumptions; and intellectual humility, or our empathy to listen and 
learn.
    Intellectual innovation, integrity and humility derive from an 
organization's culture, and ultimately, its people. People drive 
culture, culture drives how we think, and how we think drives our 
policies and strategies. So any reformation to the future of policy-
making should start with how we invest in people. As the former 
Chairman of the Joint Chiefs of Staff Marty Dempsey said, ``If we don't 
get the people right, the rest of it won't matter. We're going to put 
the country at risk.'' The good news is that many of the services and 
the Pentagon staff are already prioritizing the concept of adaptability 
in their planning.
                        making adaptability real
    Indeed, and to a large degree, such a shift is already under 
consideration. The ``brain-drain'' of the U.S. military has been well 
documented and the Pentagon has clearly taken note. Secretary Carter's 
Force of the Future initiative should be aggressively implemented as a 
serious effort at reform. Secretary Carter's vision has a tremendous 
champion in Undersecretary Brad Carson, but he will face a broader 
cultural resistance to change, which is likely to diminish the pace and 
breadth of reform.
    Force of the Future is only the latest study that validates the 
urgency of instilling greater adaptability into the defense enterprise 
and the thinking of its personnel. The Defense Science Board published 
a report in 2011 on ``Enhancing Adaptability of U.S. Military Forces.'' 
The Army's Office of Economic and Manpower Analysis at West Point has 
done considerable research on this problem to include a 2014 Task Force 
report on ``Fostering Institutional Adaptability.'' And Army Chief 
General Odierno's ``Force 2025'' vision is an Army that is ``adaptive, 
innovative, exploits the initiative and can solve problems in many 
different ways.'' As other witnesses have told this committee, we seem 
to know we have a problem with the personnel system and acknowledge the 
need for adaptability, but struggle with agreeing on what that means in 
terms of reform.
    In my view, the potential in personnel reform is more strategic 
than retention, healthcare, retirement and compensation, as important 
as those issues are. Rather, the focus of personnel reform should be 
the broader spectrum of development to include recruiting, assessments, 
promotions, and education. The real potential in Force of the Future is 
not simply in controlling costs--it is in how it enhances the future 
cognitive performance and intellectual adaptability of the force. 
Indeed, Force of the Future might shift its lexicon from a focus on 
retaining talent to one of developing talent. Carrots and other 
retention tools are not necessarily the same as force development 
tools, and the more the two are confused, the more risk we incur.
    Moreover, adaptability in this context should not be misconstrued 
as how we buy or acquire technology, but is instead directed at how we 
think about defense policy and strategy itself. Of course, technology 
is important, but we tend to over-emphasize and misperceive technology 
as the crux of innovation. For instance, the establishment of a new 
Defense Innovation unit in California will bring entrepreneurial spirit 
and technical expertise to Washington. But what we need most from those 
outside of Washington is a spirit of intellectual integrity and 
humility, not just technical know-how. Many of our nation's best and 
brightest are found in Silicon Valley, and we need to tap into that 
resource. However, we should aspire to a future military force that is 
itself regarded as the best and brightest, and where Silicon Valley 
comes to find and borrow talent.
                  people are the crux of adaptability
    One subtle irony with the Pentagon's outreach to Silicon Valley is 
that the defense establishment owns DARPA, one of the world's greatest 
innovation firms. DARPA has special hiring authority and robust funding 
because it has the sacred mission of maintaining a cutting-edge 
advantage in defense innovation. In a similar way, we should view the 
mission of defense policy and strategy as equally high-stakes and 
sacred. Defense policy deserves and requires the same attention to 
intellectual innovation that we currently invest in driving defense 
technology.
    DARPA's gift to the military is its innovative technology, and the 
real magic behind that technology is DARPA's personnel system, which is 
built on a rigorous tradition of cognitive performance and an 
intellectually grueling process that insiders liken to defending a PhD 
thesis. This culture, coupled with special hiring authority that 
laterally acquires outside experts on a term-limited basis, drives an 
engine of innovation fueled by exceptional people who want to change 
the world.
    General Pete Schoomaker institutionalized this belief more than 20 
years ago with the enduring principle that ``humans are more important 
than hardware.'' Schoomaker's passion for reforming the Army stemmed 
from his personal experience in the tragedy at Desert One in the failed 
Iranian hostage rescue. In his farewell message to the Army, he 
cautioned that ``we must never forget that war is fought in the human 
dimension. Therefore, technology will always play an important but 
distinctly secondary role . . . ''
    Pixar president Ed Catmull has a similar philosophy about people 
that has enabled Pixar to remain an innovative and creative leader in 
the world of animation. In the creative industries, the priority is on 
novel ideas, much as the military puts its premium on technology. But 
according to Catmull, prioritizing ideas over people puts the cart 
before the horse: even great ideas can be spoiled within a culture 
where people are not the priority.
    The lesson of DARPA, Schoomaker and Pixar is that we must think of 
adaptability as a way of thinking rather than as something that is 
acquired or purchased. The pursuit of intellectual adaptation in policy 
will require balancing our investments in technology with our 
investments in people.
                 balancing operations with development
    I've participated in two studies that assessed the future of U.S. 
Special Operations Forces. I've come to believe, despite all their 
successes and accomplishments, that the intensive utilization of 
special operations forces in permissive environments over the last 
decade has been akin to taking a very sharp knife and rubbing it across 
concrete. Sustained operational employment of our best forces is an 
inevitable temptation in a time of war, and it builds an incredible 
well of combat experience, but it does not provide the time to study 
and grow, and to experiment and fail, which are necessarily to hone 
cutting-edge cognitive performance and adapt ahead of the enemy.
    It is my sense that our military's operationally-focused, command-
centric culture is working against the development of intellectual 
adaptability. The model of promotion and personnel management is built 
around the operational command experience. The more our forces run to 
the sound of guns and serve in operational units, the more promising 
their career. By contrast, experiences that expose people to new ways 
of thinking, such as civilian schools, are still seen as rewards or 
``good deals.''
    Moreover, these ``broadening'' opportunities, where they do occur, 
are seen as ``rests'' from the grueling operational pace. Thus the 
military officer student is incentivized to ``take a knee'' at school 
rather than actively invest in their learning and growth. How they do 
or what they write as students is generally irrelevant to their career 
promotion. Military colleges have a 100% pass rate, which does not 
reflect a rigorous process of independent learning. Overall, the 
operational culture still views broadening as a cost to be minimized 
vice a long-term investment to be expanded.
    The one-size-fits-all system and its lack of differentiation also 
results in a stratification of officers whereby some become ``fast-
track'' and ``groomed'' for flag rank and the rest are among the 
``pack.'' The competition for the ``fast-track'' is a powerful 
disincentive to investing in personal growth and development. Thus 
military members consider outside ``broadening'' opportunities with 
hesitation as they weigh the downside risk to their career. Moreover, 
the model tends to promote based on historic tactical and operational 
proficiency, not forward looking strategic thinking potential. The Army 
War College recently published the results of a Harvard thesis that 
concluded that Army officers with higher cognitive ability are 
statistically less likely to be promoted below zone or to achieve 
battalion command. The fact that we've had thoughtful and intelligent 
senior leaders in uniform should not be taken as evidence that the 
status quo generates an entire force with such traits. The question is 
not whether we can find a few critical thinkers every few years for the 
top positions, but whether we have an institution that collectively 
thinks critically from top to bottom.
    The operational culture also dulls intellectual adaptability by 
incentivizing convergent thinking. Fast-track officers who come to 
strategy and policy jobs to ``check the box'' for their staff job 
requirement have little incentive to deviate from the mainstream 
analysis, lest they jeopardize their operational career. The cultural 
command-track expectation is not that these officers ``move the policy 
needle''--it is instead that they merely ``punch the clock'' and move 
on to the next command-track job. They are ill served by rocking the 
boat they sit in.
    It is in this spirit that prior witnesses have raised the issue of 
a general staff as being preferable to the current joint staff model. 
Notwithstanding the drawbacks of a general staff, there is a very real 
problem with the joint staff increasingly serving as a pass-through 
rubber-stamp for combatant command or field recommendations. This 
deference likely stems from the above effect, whereby command-track 
officers are unlikely to challenge other operational officers in 
command. There is little penalty for silence.
    The anti-intellectual cultural prioritization of operations over 
education should be inverted. This has been done before. During the 
inter-war period, the War Department explicitly prioritized Army staff 
and war college faculty manning above operational units. This 
prioritization of education was based on the assumption that future 
warfare would be different than the first World War--our planning 
assumptions today should be at least as humble.
    We can't rely solely on a generation of combat experience and new 
technology. The development of our people, and their ideas, is how 
we'll adapt and outsmart future enemies.
                   invest in drivers of adaptability
    Research points to several factors that could improve intellectual 
adaptability in defense policy and strategy decision-making: 1) 
autonomy and ownership; 2) experimentation and failure, and; 3) 
critical review and dissent.

1.  Autonomy and Ownership. The private sector is increasingly 
investing in the related concepts of autonomy and ownership as means of 
optimizing not only the intrinsic motivation of employees, but also as 
an important engine of intellectual innovation. Autonomy gives people 
the freedom to plan their work and to own that plan, and researchers 
have demonstrated that such factors generally result in a more creative 
process. Google, 3M, and other companies with a track record in 
innovation have institutionalized autonomy and ownership by accepting 
the inefficiency and cost of giving their people time to develop their 
own ideas. DARPA's model also leverages this effect, whereby program 
managers and their teams generate and own the ideas at the center of 
their projects.

   In defense policy and strategy, autonomy would suggest moving away 
from the one-size-fits-all model to allow for differentiation among 
officer tracks to account for different strengths and interests. 
Autonomy might also involve rebalancing career paths to allow for 
``broadening opportunities'' with increased flexibility for independent 
research and academic assignments. Force of the Future is proposing 
reforms to expand in-service civilian school opportunities, but 
internal compromise will likely result in a partial and modest 
prototype. A partial prototype could have the unintended consequence of 
continuing the stratification effect whereby officers perceive some 
handicap to their career path by experimenting with the traditional 
norm. As experienced with the Pentagon's ``Afghan Hands'' program, 
career path reforms may not have the desired effect unless they are 
implemented broadly.

2.  Experimentation and Failure. The track record of innovation 
highlights a willingness to experiment with creative ideas and to 
accept the accompanying risk of failure so that iterative improvement 
can occur. However, we typically treat defense policy and strategy as a 
high-stakes venture, thus we become risk averse and have a very low 
tolerance for experimentation with bold ideas. And yet, the practical 
experience of defense policy is that we're constantly undergoing 
experimentation and failing along the way, except that we don't 
recognize it as such--we're more likely to rationalize failure as the 
strategy being under-resourced or not yet working.

   Intellectual integrity and humility avoid this trap, and would make 
it more likely in the future to salvage success from an initially 
flawed plan.

   Take, for instance, our recent experience with security cooperation 
as a strategic pillar of our defense strategy. I've concluded that the 
logic of our modern reliance on security cooperation as a means of 
``building partner capacity'' is flawed. The logic is straightforward: 
the rise of non-state threats among failing or failed states presents 
an imperative to counter these threats with military means, and we can 
generate those military means by building capacity within other 
governments through traditional security cooperation. The flaw in the 
logic is also straightforward: experience has shown that other foreign 
governments, particularly those relevant to this issue, rarely share 
our interests or values, and how well they absorb, utilize and sustain 
the military capacity we provide often falls well short of our 
expectations.

   The flaw in the logic is reasonably apparent and well-documented, 
but it is easily overlooked because of a compelling perceived need to 
act in the face of these growing threats, and security cooperation 
provides an existing channel by which to act, particularly when 
political pressure makes it preferable and cheaper than the alternative 
of deploying U.S. forces. And despite the fact that the track record of 
the experiment has been so poor in countries like Iraq, Afghanistan, 
Yemen, Syria, and others, we have yet to step back and revisit the 
logic of this strategic pillar of national defense. The lesson might be 
to be more modest in setting realistic objectives. Again, it is 
intellectual integrity that allows for adaptation to the strategy when 
the strategy isn't working. And intellectual humility can help 
compensate for a `decisive win' culture that frequently tries to hedge 
against all possible risk.

   As an aside, and in this regard, I applaud the new mandate, via the 
recently passed NDAA, to develop a ``strategic framework'' for security 
cooperation.

3.  Dissent and Critical Review. Related to the importance of failure 
is the necessity of dissent. We recently marked the 100th anniversary 
of the articulation of the theory of general relativity by Einstein, 
the most iconic of intellectual innovators. Among Einstein's more 
famous quotes is the simple idea that ``we cannot solve our problems 
with the same thinking we used when we created them.'' While Einstein 
is often popularized and celebrated as a lone genius, he leveraged 
collaboration, peer review, critique and iteration to conclude his 
radically adaptive theory of general relativity.

   Defense policy decision-making is a relatively closed, consensus-
based process, and is exposed to a limited infusion of external ideas. 
Moreover, research suggests that groupthink is more common in 
hierarchies with a high degree of cohesion, risk, and sense of mission. 
Thus defense policy is vulnerable to cognitive bias and shouldn't be 
grading its own homework, yet that is often how our current system 
functions. Within the Pentagon, the offices that develop and implement 
policy are often the same ones that assess its effectiveness, and those 
assessments can suffer from a lack of objectivity. Thus assessments of 
defense policy typically fall to the intelligence services, which 
becomes understandably frustrating to the Pentagon and 
counterproductive to the national security process.

   The exigency of combat long ago brought about the practice of ``red 
teaming'' military planning to think like the enemy and probe one's 
vulnerabilities, and the U.S. military has done much to advance the 
concept. After the failures in planning for the 2003 invasion of Iraq, 
Schoomaker and Keith Alexander established a ``Red Team University'' at 
TRADOC at Ft Leavenworth to improve the Army's decision-making process 
by teaching officers to be introspective and reflective of their own 
biases, to be more empathetic in listening to others, and to mitigate 
the effects of group-think. The current leader of that program, Steve 
Rotkoff, became dedicated to this challenge after personally 
experiencing the failures to account for the known risks of the 2003 
Iraq invasion, which retired Marine General Zinni has called a 
``dereliction in lack of planning.''

   The recent book ``Red Team'' by CFR Fellow Micah Zenko scrutinizes 
the challenge of an institution evaluating its own plans and the 
utility of dedicating expertise that is empowered and expected to 
rigorously pressure-test those plans. Dr. Zenko outlines how the 
``tyranny'' of expertise within groups can cloud objectivity and 
creativity and how the best insights within an organization often come 
from its least senior people. This sheds light on a critical challenge 
of our defense policy system whereby decisions get made top-down while 
understanding flows from the bottom up. The tools of ``red teams'' can 
help mitigate the risks of decision-making being separated-in this case 
by many layers-from the best source of insight.
                            recommendations
    Along these lines, I offer two sets of recommendations on how this 
committee might promote the strengthening of intellectual adaptability 
in defense policy and strategy. The first set of recommendations would 
rebalance priorities at the individual level, i.e. within the context 
of talent development and career planning, mostly in the military 
context. The second set of recommendations would make changes at the 
organizational level, mostly in the context of defense civilians.

1.  Prioritize People and their Cognitive Development. The conventional 
military officer career path is based on the outdated idea that command 
at every level requires command experience at the prior level. 
Enhancing adaptability and cognitive performance will require 
broadening and diversifying this career path and allowing for 
differentiation of officer skill sets. Force of the Future proposals 
call for mandatory academic and interagency tours for promotion, but 
dilution and partial implementation of such proposals are likely.

   Specifically, the services appear to be pushing back against more 
aggressive reforms due to concerns with finding room in the 
``conventional'' career path for such mandates. To be fair, there is 
valid concern over the opportunity cost of having less operational 
experience when our forces are next called to fight. However, recent 
experience suggests that accepting the risk of this trade-off would be 
acceptable based on the lesson that intellectual adaptability in combat 
is increasingly valuable relative to conventional operational efficacy. 
This was the lesson of JSOC in Iraq in the hunt for al-Qaeda in Iraq, 
as outlined by Stan McChrystal in his recent book ``Team of Teams.'' To 
defeat the enemy, they needed to re-tool how they had learned to 
operate.

   These recommendations would put cognitive development on a par with 
tactical proficiency, based on the premise that rebalancing combat 
warfare proficiency with broadening education and training in divergent 
thinking will improve our future intellectual adaptability.

     <bullet>  Move Beyond ``Jointness.'' Goldwater Nichols succeeded 
in building a joint force that thinks as a military rather than as a 
service, but the universal requirement for ``joint'' service has likely 
outlived its usefulness. Today's military serves in a different 
landscape where the solutions to defense problems intertwine military 
capabilities with diplomatic, intelligence and competencies from other 
agencies. And yet, military leaders have little incentive to serve with 
other national security agencies because it would jeopardize their 
career path. This also bifurcates defense and foreign policy, with one 
community trained to think in military and intelligence terms, and 
another in diplomatic and political terms. This parsing may be 
traditional, but it is not conducive to effective policy solutions to 
the 21st century problems that increasingly blur these old divisions.

      Tomorrow's national security apparatus needs ``wholeness'' among 
its agencies in the same way that Goldwater Nichols sought 
``jointness'' among the services. The committee's writ is limited in 
this regard, but Defense could lead the way by building a next 
generation of senior military leaders with an abundance of ``national 
security'' experience with other agencies or interagency task forces.

     <bullet>  Prioritize Academic Growth. Academic or research 
``broadening'' tours where military leaders are exposed to new ways of 
thinking should be as important to promotion as combat experience. In 
their 2008 Joint Operation Environment publication, the Joint Forces 
Command cautioned that ``in the year 2000, the PLA had more students in 
America's graduate schools than the U.S. military.'' Status quo career 
incentives should be rebalanced to make academic ``broadening'' tour 
experiences more common by the O-6 milestone, with a significant 
expansion of civilian school opportunities.

     <bullet>  Promote Differentiation. Outlying officers who do not 
achieve the ``fast-track'' operational career because they have greater 
inclination to non-command academic or policy tours should not be 
handicapped in their career. Force of the Future is proposing the 
expansion of ``technical tracks'' for such officers, but this risks 
perpetuating the stratified, two-tier system of the ``command track'' 
and everyone else, which is not healthy. Until there is better equity 
and balance between the command tracks and other tracks, the non-
command tracks will not attract and promote the best people. The 
concept of a ``technical'' track should be made commensurate with the 
``command'' track and include near-equal opportunities for the policy-
minded strategists.

     <bullet>  Promote a Meritocracy. Carrot-based incentives to retain 
the ``best and brightest'' are unlikely to succeed. What drives many 
such officers out is not the pay or benefits, but frustration with a 
time-in-grade system of promotion. If the rate of advancement could 
vary based on demonstrated aptitude for responsibility and leadership, 
with a less rigid system of tickets that needed to be punched, the 
``best and brightest'' would be more amenable to being retained. Such a 
shift could be phased in, as a first step, by expanding and making more 
flexible the ``early promote'' quota system and removing the year-group 
management controls in the mid-grade years.

2.  Enhance Intellectual Adaptability within Defense Policy

     <bullet>  Conduct internal, independent policy and strategy 
assessments. Policy developers and implementers should not be grading 
their own homework. While the intelligence agencies will continue to 
play a role in evaluating the implementation of policy, it is 
unproductive for the Pentagon to rely on another agency to assess its 
defense policies. Rather, the Defense Department should have an 
institutionalized, independent ``red team'' of experts and outsiders 
dedicated to and empowered with the task of rigorously testing policy 
and strategy assumptions and opening eyes to alternate perspectives. 
This office should be led by an independent, direct report to the 
Secretary, comparable to the existing offices for budgetary and 
programmatic oversight (CAPE) and over-the-horizon analysis (ONA). 
Objective policy assessment is at least as important as long-term 
forecasting and budgetary evaluation.

     <bullet>  Dedicate and separate policy developers and 
implementers. The urgency of policy implementation generally dominates 
policy resources, leaving little bandwidth for dedicated policy 
development. The two functions should be related, as implementation 
should inform development, but they should not be one in the same. 
Separation could be akin to the Ops-Plans model of military staffs, 
which is lacking in the current OSD model. OSD should consider such a 
policy model, whereby policy development personnel are dedicated and 
protected from the distractions of policy implementation issues and 
day-to-day operational crises.

     <bullet>  Enhance the development of civilian policy 
professionals. OSD should augment the professional development of 
policy civilians with specialized training to enhance critical thinking 
in policy development and assessment. The Army's University of Foreign 
Military and Cultural Studies at Ft. Leavenworth gives an in-depth 
course of instruction to those who serve on ``red teams'' and provides 
a shorter curriculum to all Army officers, which includes important 
lessons on group think mitigation and fostering cultural empathy. 
Something similar could also be useful to civilian policy personnel.
                               conclusion
    Mr. Chairman, Senator Reed, Members of the Committee, I appreciate 
the opportunity to offer this testimony.
    I believe that humility is required in predicting how many or what 
types of battalions, fighters or languages the force of the future will 
need. Those who proclaim that the future of conflict definitively lies 
in one region over another, or in one form of conflict over another, 
are likely to be proven wrong. The uncertain nature of future threats 
puts a clear premium on intellectual adaptability and being more open 
to new ways of thinking about how we employ the resources we have.
    This is difficult, because it requires an embrace of uncertainty 
and tinkering with some of the most revered, time-honored personnel 
models in our history. As always, such reform would be disruptive and 
costly in the short-term and require some acceptance of risk. 
Nonetheless, my view is that such risk would be smaller and more 
manageable than the increasing costs of a future failure to adapt.
    I hope this statement serves useful in your consideration of 
reform, and I'd look forward to assisting the committee in any way 
possible in the future.

    Chairman McCain. Thank you very much.
    Secretary Flournoy, I have been concerned about the 
centralization of decision-making on a tactical level. I have 
been told, for example, the reason why we waited for a year to 
launch strikes against the fuel trucks, which were a great 
source of ISIS's [Islamic State of Iraq and Syria] revenue, 
that the decision rested in the White House and had never been 
given. It seems to me that those decisions should be made at a 
tactical level, and I wonder about your concern about that.
    But, second of all, when I tell people and my constituents 
about the numbers that you just cited in your testimony, tens 
of thousands of staff members at all levels, they ask me a 
simple question: How did this happen?
    And finally, what is your solution? Do we have to act 
legislatively to put caps on the size of these staffs? Do we 
have to restructure the entire organizations? I think everybody 
agrees they are much, much, much too large. And so what is your 
suggestion as to how we get this situation back under control 
and get our service men and women back into the operational 
force?
    Ms. Flournoy. So first on your point about tactical 
decisions being sort of pulled up the chain of command into 
either the senior reaches of the Pentagon or the White House, I 
think too often that happens because of two reasons: one, a 
lack of role clarity of who has what job; and two, a risk 
aversion. The more people are worried about risk, the more they 
tend to pull decisions up the chain of command.
    The irony of that is that I think if you were to keep the 
NSC [National Security Council] process focused on strategy 
development, policy setting, setting the right and left limits 
for execution, and then you were to empower the secretaries of 
the various agencies to actually execute on that policy and 
then hold them accountable if they screw up, but allow them to 
really be empowered executors of the policy, I think actually 
in fact that would reduce risk to the President and to the 
policy.
    So I do think it is a matter of role clarity, but it is 
also a matter of management style that empowers leaders down 
the chain and holds them accountable.
    You know, in terms of how this tremendous growth in 
headquarters staffs have happened, I think there is certainly 
instances where in a very complex world, the Department gets 
assigned new tasks and every time there is a new task and 
somebody new responsible for that task at a senior level, they 
grow a staff.
    Chairman McCain. And there is a new command.
    Ms. Flournoy. And there is a new command. Right.
    So there is some of that.
    But I also think it happens--it is more about the natural 
tendency of bureaucracies to grow. The fact that without role 
clarity you have a lot of people competing to do the same work, 
we now have a situation where COCOMs are routinely pulled into 
the policy process. And if you are a four-star COCOM commander 
and you are going to have to appear in the situation room, of 
course, you are going to build your own policy staff so you are 
prepared to do that. But is that really what we want the 
functions of the COCOMs to be?
    So I think role clarity, really scrubbing the functions and 
then I think applying some of the best practices that many 
Fortune 500 companies have gone through, which is systematic 
organizational design where you start with some design 
principles and then you go layer by layer and you optimize 
spans of control and you eliminate unnecessary layers. And not 
only do you get cost savings, but more importantly, you get the 
kind of organizational agility and adaptability that my 
colleagues here have been talking about.
    Chairman McCain. Secretary Vickers?
    Mr. Vickers. I would just underscore what Michele said 
about the dangers of centralization. I also think there is a 
case--and it does stem from risk aversion, and I think when you 
confuse a regional war for a counterterrorism campaign and 
apply processes you apply outside of areas of armed 
hostilities, then you get the results. If you compare our 
campaign against the Taliban in 2001 versus our campaign 
against ISIL in Iraq and Syria, you see a really marked 
difference, and you see a marked difference in results as well 
in terms of toppling the hostile regime. ISIL, of course, is 
far more like a state--or it is a combination of a state and a 
global jihadist organization. Even within the counterterrorism 
realm, when we have applied the principles that Michele 
described in terms of delegated authority, we have been far 
more effective.
    Chairman McCain. Commander Eggers, briefly.
    Mr. Eggers. Thank you, Chairman McCain.
    The only point I would add is the role of information flow 
and technology which has changed radically and made it far 
easier for the effect that Secretary Flournoy mentioned where 
we pull in the field. We feel an obligation to understand the 
operational level of detail and the policy decision-making 
process. And I think that has two drawbacks. One is it does 
bloat the size of the subordinate staffs, but two, it 
introduces a certain cultural deference to the field and a 
certain amount of bias towards the preferences of the field, 
which I alluded to in my statement for the record, which I 
think has to be acknowledged.
    History suggests that there is benefit by senior leadership 
understanding these tactical details and the effects of the 
policy and the strategy. Yet, I think that that has grown due 
to the proliferation of technology change and the way we see 
information and have awareness of the battlefield.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    And thank you witnesses for very, very thoughtful 
testimony.
    Starting with Secretary Flournoy, you indicated that in the 
realm of planning documents, the process would be improved if 
it was a classified document essentially and then periodical 
releases of generic information, et cetera. If you want to 
elaborate, please do so, Madam Secretary, and then I will ask 
Secretary Vickers and the Commander for their comments too.
    Ms. Flournoy. In my view, when we have unclassified 
documents, we tend to get a lovely coffee table book that is a 
list of everything that is important. But what the Department 
really needs is strategy and strategy is about making choices. 
So clear priorities where not everything is a priority. 
Probably the hardest part of strategy is deciding where you are 
going to accept and manage risks. There are problems talking 
about that in too detailed a manner in a public context because 
your adversaries are listening, opportunists are listening, 
allies are listening. So it is very important I think for a 
real strategy document to be classified and shared with the 
appropriate overseers in Congress to really guide 
prioritization and resource allocation.
    I also think that that process should be leader-driven but 
be very inclusive at the leadership level. The best example of 
that I saw was in the development of the 2012 defense strategy 
where we did it because of profound changes in the resourcing 
and security environment, but it included everybody from the 
President to the Secretary of Defense to the Chairman to all of 
the COCOMs, all of the service chiefs and secretaries, and so 
forth. I would have liked to have actually seen it include a 
couple of key Members of Congress as partners. But it was an 
iterative process of really getting the leadership team as a 
leadership team to buy into a real strategy that did prioritize 
some things and accept risk and manage it in other areas. So I 
think that is a good model to build on.
    Senator Reed. I will just insert a point and then ask the 
Secretary, and then you might come back at the end, Madam 
Secretary.
    This is all nice, but ultimately we have got a budget, 
which is pretty open and people argue that that is the 
strategic guidance right there. You might think about this, 
Secretary Vickers. How do we sort of have this very classified 
sort of strategy and then have a budget that does not reveal 
it?
    Ms. Flournoy. I think there are parts of the budget that 
are rightly classified, and I think we can have a broad 
discussion of strategy and we should in a democratic context. I 
just think that what I hear from this committee and from others 
in the Department, frankly, is a frustration that we stop short 
of the hard choices sometimes. And I think some of those need 
to have a classified environment to have an honest discussion 
about what we are actually doing.
    Senator Reed. Secretary Vickers, please, and then 
Commander.
    Mr. Vickers. Sure. I think that important aspects of our 
strategy have to be developed in secret to be effective, and 
that really is the case. You know, it is a question of 
emphasis. The reason for this is that good strategy really has 
to be unexpected in some ways if you are going to exploit your 
strengths against your opponent's weaknesses and create new 
strengths. Either to change the rules of the game or to beat 
him at his own game has to be consistent with your overt 
strategy, but there are important elements that have to be 
secret.
    I would add to your question, Senator Reed, classified 
strategy can use unclassified capabilities in unexpected ways, 
and that is what confounds your enemy, as well as our 
classified capabilities that we necessarily keep classified.
    Senator Reed. Commander, can you comment, please?
    Mr. Eggers. I would take a slightly different and mixed 
view on this which is that the problem with the strategic 
documents and the framing we have now is not necessarily that 
they are unclassified, it is that they avoid the hard decisions 
and that they become a laundry list of every conceivable 
approach to solve a problem because of the process. And that is 
not because of the unclassified nature so much as the process 
that develops those documents. And some strategic documents 
will need to be classified by virtue of the content, but that 
in general an open document that is open to the scrutiny and 
the debate of outside experts who will not have access to a 
classified document could be a valuable effect to increase the 
diversity of thinking that goes into that strategy that we 
would lose by classifying the document.
    Senator Reed. Well, thank you.
    Thank you, Mr. Chairman. Thank you.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Just down the line, does a classified document or series of 
classified documents exist today that actually are the 
operational directive that would be a replacement to a QDR? Is 
there a series of them out there right now that we simply do 
not talk about?
    Ms. Flournoy. Yes. There is a planning guidance that is 
issued both for force planning but also for contingency 
planning. And so there are key elements of a strategy in those 
documents that do exist today.
    And I would agree with Commander Eggers. I am not 
suggesting that all our defense strategy should be classified 
and that solves the problem. I just think that the real issue 
is being able to make those hard choices, being able to debate 
where we are going to accept and manage risk, how we are going 
to prioritize among the many things we need to do.
    Senator Rounds. Agreed, gentlemen?
    Mr. Vickers. Yes. I mean, there is certainly no shortage of 
classified documents and guidance. The question is whether they 
are strategically meaningful in a sense of concentrating 
actions and resources. That is where I think we fall short. 
That is the difference between good strategy and bad strategy. 
It is not things that we should do in the classified realm we 
sometimes do in the unclassified realm, but it is also whether 
what we are doing in the classified realm is really significant 
enough. It still has to meet the same test for good strategy. 
You are just more exposed, and that is why you keep it 
classified because you are trying to really--you are 
acknowledging how you assess the world, which may be different 
than the way you say things in public in some important 
aspects, and then actually how you are going to leverage your 
advantages is obviously sensitive.
    Senator Rounds. Mr. Eggers?
    Mr. Eggers. And I would agree. I think people in the 
military decision-making and policy decision-making processes, 
when they set out to try and drive the process, will assemble 
all of these reference documents, unclassified or classified, 
QDR, national defense strategy, strategic planning guidance, 
and so on. And even then, it is very difficult to look at the 
mosaic of that guidance and the strategic framework and discern 
what that means for the implementation on that particular 
policy issue. In other words, it has become so big and so 
diverse in some ways that it often can lack coherence to the 
policy decision-making process that it is trying to inform, and 
even worse, it can become somewhat disconnected from resource 
allocation, which is a different problem in and of itself.
    Senator Rounds. Bottom line, if the QDR were to be 
eliminated, there would be a savings, I believe, in terms of 
staff time just creating it, and at the same time, there are 
other documents which could be expanded upon in a classified 
setting that would take the place of what we are doing right 
now in an unclassified setting.
    Ms. Flournoy. Yes. I would encourage you to just 
fundamentally reset the process and ask the Secretary to 
produce a top-down, leader-driven strategy document that has a 
classified form and an unclassified form and get rid of the 
bottom-up, ``everybody comes to the table'' kind of process 
because in practice the QDR has become the ultimate tyranny of 
consensus. The object is what can we get everybody to agree on 
and sign off on as opposed to how do we frame and present to 
the Secretary and the Chairman the real choices before the 
Department and how to make those choices. It focuses it on 
consensus as much as framing and assessing the alternatives and 
offering those for decision, which is a different process than 
what the QDR has come to be.
    Mr. Vickers. And it is much bigger than the QDR in terms of 
strategy. You know, as Jeff said and the chairman said about 
strategic integration, we do strategy every day in lots of 
ways. So our COCOMs every day are doing something called phase 
0 operations directed by classified guidance that is shaping 
the environment. Well, you know, we are not doing all that well 
that is shaping the international environment the last 15 
years, and that is why a coherent strategy that is 
strategically integrated--this is something that spans 
administrations, but that is what is really missing from our 
overall practice of strategy.
    Senator Rounds. Thank you, Mr. Chairman.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    I find this a fascinating and important discussion. 
Napoleon said war is history. Freud said anatomy is destiny. It 
has been my observation that structure is policy, that if you 
have a large, cumbersome, slow structure, you will have 
cumbersome, slow, consensus-driven, and ultimately 
unsatisfactory policy or strategy, as we are talking about 
today.
    It is very interesting. Mr. Vickers, you kept talking about 
adaptability as the key term, and you used the phrase about 
consensus is the enemy. You cannot adapt if you have a 
consensus-based process, it seems to me. What we are really 
talking about is agility and agility in decision-making 
particularly in an era of such rapidly developing and changing 
challenges, the challenges we are facing today from ISIS are 
different from the challenges we faced from terrorism 2 years 
ago. The whole homegrown extremist idea is a new challenge. And 
yet, we have 38,000 people trying to evolve policy.
    Ms. Flournoy, I think one of your important insights is 
that policy should be top-down, that the people who are 
assigned to think big picture are to be the ones where the 
strategy should begin.
    Mr. Vickers, do you agree with that proposition?
    Mr. Vickers. I do. That does not mean only senior leaders 
have to do it. They can be aided by a small staff or key 
individuals, but I think small groups, top-down, senior 
accountability is critical in strategy.
    Senator King. If we are talking about strategic thinking in 
the military, give me some thinking, Mr. Eggers, on whether the 
promotion process stifles creativity, risk-taking, and the kind 
of adaptability that we are looking for. To put it more 
bluntly, could Rickover become an admiral today?
    Mr. Eggers. In my statement for the record, I go into some 
detail about a lot of the research that suggests that the 
promotion system with its emphasis on the command track model, 
which puts the premium on operational experience, is in fact 
degrading our ability to be more creative and innovative in how 
we think. That, coupled with the refinements of Goldwater-
Nichols and the Joint Staff requirement for promotion, for 
instance, means that you today have a Joint Staff that is built 
with some of the best officers we have largely from the 
operational community on a very promising career track who come 
to that job and have very little incentive to think differently 
and offer opinions that are outside the mainstream analysis, 
which hinders the process. In effect, the Joint Staff can 
become something of a pass-through for field or COCOM 
recommendations in the process.
    Senator King. I could not find the quote, but there is a 
wonderful quote from Churchill about the sum of any committee 
decision is always no, that the committee, by definition, sort 
of filters out a different thinking and adaptability and 
agility, which again is what we need.
    Let me change the subject for a minute. Is all this window 
dressing? Is real policy not made in the White House these 
days? We have thousands and thousands of people in the Pentagon 
thinking about strategy, but the decisions are made in the 
White House and perhaps that is where they have to be made.
    When I was Governor--or let me just make another example. 
It was not some mechanic--the headline was not ``mechanic 
failure caused helicopters to crash in the desert.'' It was 
``Carter mission to rescue hostages failed.'' Do you see what I 
mean? If the President is going to be held responsible for 
these decisions, it seems to me in large measure they have to 
be made there. I do not have an answer here, but I am 
interested in your thoughts, Ms. Flournoy.
    Ms. Flournoy. I think strategy and policy decisions should 
be made at the Commander in Chief level--many of them, 
particularly when you are putting Americans in harm's way. But 
I think once a general policy direction is set, empowering your 
line organizations to actually implement it within certain 
right and left limits and then holding people accountable for 
the results--you know, it is the only way you are going to be 
able to deal responsively and effectively with the full range 
of challenges that we are facing.
    I think from a White House perspective and from a senior 
leader perspective, one of the challenges is when you ask for 
options, when you ask for ideas, what do you get? And this gets 
back to the tyranny of the consensus. What we really need right 
now on the capabilities front is real competition of how are we 
going to solve some of the key problems in a much more 
contested Asia-Pacific environment or with a Russia who may 
actually realize real anti-access/area-denial capabilities in 
the European theater even sooner, or with this persistent 
problem with ISIS and violent extremism. We need real options 
development, and that means a competition of ideas.
    Senator King. I am out of time, but I think it was Mr. 
Eggers who talked about a red team. I love the idea of a red 
team in the Pentagon or perhaps in the National Security 
Council whose job it is to contest the conventional wisdom, to 
contest the consensus, to be obnoxious. I could volunteer for 
that. I am well qualified.
    [Laughter.]
    Senator King. But seriously, I think literally a structure 
that builds competition and contrarianism into the system might 
be salutary.
    Thank you very much for your testimony.
    Thank you, Mr. Chairman.
    Chairman McCain. I think it was the former head of IBM that 
had a sign on his desk that said ``The Lord so loved the world 
he did not send a committee.''
    [Laughter.]
    Chairman McCain. Senator Sessions.?
    Senator Sessions. Thank you, Mr. Chairman.
    Senator King, thank you for beginning to think at a higher 
level. That is what is on my mind right now. We are talking 
about a very important thing, how to develop strategy within 
the Department of Defense. But if it does not coordinate with 
the executive branch's ultimate decisions about how to conduct 
operations, then we have got a problem. We have got a 
breakdown.
    So I am thinking about the role of the National Security 
Council. I understand that to be the place where the President 
makes his final strategic decisions, and therefore, how does 
the Defense Department, which has the technical expertise 
presumably to execute whatever strategy they are given to 
execute--how do they influence that? Are they properly being 
respected and their expertise accepted? Or how does that 
relationship--and is there anything that we can do--I will ask 
the three of you--to enhance the ability of real practical 
knowledge on the ground?
    I may be wrong. I have a couple of problems. I think that 
we were way to slow in responding to ISIS's move in Iraq. It 
was like, well, once they take over and they stop, then we will 
worry about taking back territory, which is normally harder 
than stopping it to begin with. And then we have the problems, 
as has been mentioned, in Syria.
    Secretary Flournoy, what do you think?
    Ms. Flournoy. A couple of observations. One is that I think 
when one of my former mentors, John Hamre, used to say, if you 
want to make a staff more strategic, cut it in half. I think as 
you grow staffs--and this includes the National Security 
staff--they tend to get more into operational details and 
tactical kind of oversight. I think historically when you have 
had smaller National Security Council staffs--I am thinking of, 
for example, the Scowcroft era with a very clear understanding 
of what their role is, which is strategy, policy, honest 
broker, and options development for the President and not 
getting into a lot of micromanaging of agencies' actual 
execution, except when there is a problem and providing 
necessary oversight there--so I think that is very important.
    In terms of the Goldwater-Nichols structure, I actually 
think the structure is right in that you have the Secretary of 
Defense at the table in the National Security Council and you 
also have the Chairman as an independent voice, not only an 
advisor to the Secretary but also an advisor to the President. 
And what that ensures is that even when the President is--
whether it is his own view, he is representing a COCOM view, 
what have you--when there is military dissent, that that direct 
line to the President by the Chairman ensures that he has an 
opportunity to make that dissent heard before the President 
makes a decision about using the military instrument. And I 
think that is absolutely critical. I have seen it work. It 
sometimes upsets people, but it is a very, very critical part 
of the system.
    Senator Sessions. Then you have the problem where if the 
President says it is my strategy, my policy not to have boots 
on the ground again in the Middle East, how does the Defense 
Department handle that? Do you structure a QDR that reflects 
that view?
    Ms. Flournoy. Well, once the President makes a decision 
with regard to a particular operation, then folks have a choice 
of they implement that, salute smartly and implement, or if 
they feel that ethically or morally they cannot do that, then 
they have their own personal choices.
    Senator Sessions. Well, I think that is a good answer.
    I think the Nixon-Kissinger, the China deal, was decisive, 
small people with the depth of knowledge themselves, knew who 
to ask, made the move, and it worked. It is hard to do that the 
larger you get I think.
    Secretary Vickers?
    Mr. Vickers. Yes. I would agree with what Michele said. 
When you have too much centralization in the White House rather 
than on strategy, a big, broad strategy that is set, and when 
it is not working, it needs to change, you get a number of 
results.
    One, as you move up into our higher level committees of the 
National Security Council system, you tend to strip away real 
operational expertise for the problem at hand, and that can 
isolate a President. And that is why, as you said, making big 
decisions, of course, is the President's--that is what they are 
elected to do, but they cannot tactically manage operations. 
And so you tend to be slower as you assess the situation, or 
you tend to be very protracted in decision-making for some 
decisions that take 3 years rather than 3 months in some cases.
    You know, as I said, if I look at different models--Michele 
talked about the growth in the staff. It is also a question of 
process and what you focus on. By very, very different 
experiences, for instance, in the 1980s when we were at war 
with the Soviets in Afghanistan, we reviewed that about every 6 
months where we do not really do that today. We review them 
every week or every month.
    Senator Sessions. Thank you, Mr. Chairman.
    Commander Eggers, do you want to respond? My time is about 
up.
    Mr. Eggers. I would only offer an encouraging note, that 
the size of the National Security staff is an acknowledged 
issue and there is an ongoing effort I think to try and 
streamline and reduce that because of the effect that Secretary 
Flournoy spoke to, that smaller in this case could be better.
    Senator Sessions. A yes or no answer. Do you think that it 
is important for us to work harder to develop a long-term 
strategic policy for the United States on the major threats 
that is bipartisan in nature?
    Ms. Flournoy. Yes. And I actually think that that will be 
job one for a new administration going forward, and elections 
both in Congress and presidential elections will hopefully 
allow us to come together more on such a strategy and hopefully 
on a comprehensive budget deal that would actually underwrite 
the necessary investments for that.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you to our witnesses today for being here.
    I enjoyed the discussion about our force structure, about 
being more agile, more flexible, mobile. There are so many 
things that we really do need to consider.
    But as it comes to force structure, I am really concerned 
about our military intelligence force structure and our support 
to our warfighters both now and to meet the needs in the 
future. And I really feel that we need more robust assets to 
meet the intelligence requirements in both Europe and Africa. 
And I believe that we should be able to enhance support to our 
warfighters by reforming the Cold War era institutions and 
really focus on streamlining some of these headquarters and 
command relationships. And I want to focus a little bit on 
INSCOM [U.S. Army Intelligence and Security Command].
    As you know, the U.S. Army Intelligence and Security 
Command is located at Fort Belvoir, Virginia, and it is 
currently the Army's senior intelligence integrator. It equips, 
trains, mans all of our intelligence units around the globe.
    And when I asked about INSCOM and its impact on 
intelligence and warfighter last week, General Michael Flynn 
said before this committee we have Army component commanders 
underneath every geographic combatant commander and yet the 
Army intelligence forces are aligned back to INSCOM. Talk about 
more headquarters that you do not need.
    So I think there is a fundamental need to take a real laser 
focus at what you are addressing and decide whether or not 
INSCOM can be dissolved. There is a fundamental need to decide 
if INSCOM can be dissolved. You take resources and you push 
them out to those theater intelligence brigades which are 
necessary. End quote. That was from General Flynn.
    And, Secretary Vickers, do you agree with General Flynn's 
comments on INSCOM, and how can the Army better align its 
intelligence forces?
    Mr. Vickers. I actually do not. In fact, I strongly 
disagree with them.
    So the theater intelligence brigades that--and I have great 
respect for General Flynn. The theater intelligence brigades 
that General Flynn talked about support our combatant 
commanders. One of the functions that INSCOM serves is that--
and I am against excessive headquarters. So let me say that 
upfront. But one of the functions that it serves is to provide 
the highest level command for the Chief of Staff of the Army 
for intelligence across the Army. But it also serves as 
managerial development for our senior intel leaders. If I 
compare our intel leaders, who are going to rise to positions 
of commanding great organizations, they need the same 
leadership development that our combat arms leaders do.
    So if you are a staff officer, if you are a J-2, if the 
last thing you commanded is a battalion or something like that 
and then suddenly you find yourself as director of a major 
national intelligence agency with 20,000 people, just like our 
combat arms officers, you hope you have had a division command 
or something else before you rise to a corps command. And that 
is one of the functions that I think INSCOM serves. It is 
20,000-some people or something like that. It provides that 
opportunity for a two-star to not only set intel priorities for 
the Army but also to gain the important managerial experience 
that is required before you take on a national agency.
    Senator Ernst. I am not sure whether I agree or disagree 
with that. I would hope that developmental opportunity is 
important. Whether you have a command at that level or not is 
maybe another issue. But I would like to look more into that.
    Secretary Flournoy, do you have any thoughts on that?
    Ms. Flournoy. I must confess this is not an issue that I 
have looked at in detail, so I do not have a view on it at this 
point.
    Senator Ernst. Okay.
    Commander Eggers?
    Mr. Eggers. Similarly. With all the respect for both 
Michaels, Flynn and Vickers, I would not add anything.
    Senator Ernst. Very good. I appreciate the input.
    Secretary Flournoy, while we have you here, last week 
Secretary Carter announced that all military occupational 
specialties will be open to women. And I would love your 
thoughts on that. I support providing women the opportunity to 
serve in any capacity as long as standards are not lowered for 
women to join those types of occupational specialties and it 
does not hurt our combat effectiveness.
    However, I am disturbed at how it appears the Secretary has 
muzzled the services to a point where they cannot provide 
results and data from their combat integration studies before 
or even after that decision was made this past week. And what 
are your thoughts on the process of how this decision was made 
and can you provide any further input? And my time is running 
short as well.
    Ms. Flournoy. I was not involved or aware of many of the 
internal details of the process. Like you, I support an 
approach that sets a clear set of standards based on types of 
military specialties and then holds all people, men and women, 
to those standards. If women are able to pass the standards, 
they should be able to serve.
    The one thing I will say is that there has been a lot of 
discussion about impact on unit cohesion. I think much of that 
is disproven by actual operational experience that has occurred 
in Iraq and Afghanistan. But I would also say we have not taken 
account some of the positives. I mean, all of the business 
leadership--I am sorry--literature and experience emphasizes 
that the more diverse you make a team, the better decision-
making you get, the better performance you get, and so forth.
    So I am generally supportive of this decision. I am not 
aware of the particulars of the internal process. I would 
certainly hope that this committee in particular would be 
provided with all of the data that you request to understand 
how the decision was made and is being implemented.
    Senator Ernst. Thank you, and I do hope that we are 
provided with that information.
    Thank you, Mr. Chair.
    Chairman McCain. Secretary Flournoy, I would not like to 
end this hearing without making you uncomfortable.
    Ms. Flournoy. Sir, I would expect nothing less of you.
    [Laughter.]
    Chairman McCain. Are we winning the war against--the 
conflict with ISIS?
    Ms. Flournoy. I do not think we are where we need to be, 
sir. I think that this threat has shown itself to be much more 
serious than I think we first realized. As Mr. Vickers said, it 
is going to be a generational issue. It is something that is a 
long-term challenge that we need to deal with, and I do not 
think we are fully resourcing a multidimensional strategy.
    I do think a lot of the strategy the President has 
articulated is correct, and I personally support an approach 
that is primarily focused on enabling local partners to be more 
effective against this threat. I do not think invading Syria is 
the answer. But I do think we, as the United States, need to 
play more of a leadership role diplomatically, more of a 
leadership role in terms of enabling others militarily and with 
intelligence and be in a more forward-leaning posture because 
this threat is getting worse not better.
    Chairman McCain. Secretary Vickers? And by the way, I read 
a very excellent piece you wrote recently. I think it was in 
Politico. I am not sure which one, but I thought it was very 
thoughtful.
    Mr. Vickers. Thank you, Mr. Chairman.
    I do not believe we are winning or we are certainly not 
winning fast enough. As Michele mentioned, this will be a long 
struggle, but if you look at our fight with al-Qaeda, if you 
look at it in terms of a campaign, we need a more rapid and 
decisive campaign that will at least deny sanctuary, much as we 
did with the Taliban in 2001. The war was not over, but it 
certainly knocked them back on their heals, knocked al-Qaeda 
back on its heals for some period of time. And that is what I 
think we need to do to ISIL in the short run and then many, 
many things to follow.
    Chairman McCain. Commander Eggers?
    Mr. Eggers. Thank you, Mr. Chairman.
    I would only add that while I agree with you that the 
situation is quite concerning not just because of the degree of 
the threat but also because how complex the problem is, that 
sometimes I am concerned that the debate becomes overly focused 
on the one thing we do control, which is U.S. troops and, 
quote, boots on the ground, which seems to me to somewhat 
disrespect the essence of our previous discussion, which is 
kind of thinking in broader and more diverse strategic terms. 
And in this particular context, I think the debate needs to 
consider not only the application of United States military 
means, to include soldiers and troops on the ground, but as 
well the broader political landscape both within Iraq, but as 
well within Syria and within the region, and that too often 
that gets lost in that debate and in that discussion.
    Thank you, Mr. Chairman.
    Chairman McCain. I thank you. I am sure you understand the 
concern of the American people in light of the San Bernardino 
attack and Paris and others. The opinion polls have lifted this 
issue understandably to one of the highest priorities. And we 
need to have a national conversation about it. I obviously have 
my views and Senator Reed has his, which we are largely in 
agreement, but more importantly, we have to, I think, develop a 
strategy that is credible to the American people, and I do not 
think that is the case today.
    Jack?
    Senator Reed. My only comment would be I think as the 
commander pointed out, it has to be a multifaceted strategy 
with political as well as military dimensions, information 
warfare dimensions. And I think interestingly enough, I think 
Secretary Vickers made a good point about we had not the last 
15 set the conditions properly, and I think we have to go back 
and look back and say what were we doing. In fact, in some 
cases, we were victims of our success. The ability to take out 
terrorists with drone strikes and Predators was very effective 
short-run, but it created this dynamic in the world that many 
people found a justification to focus their animosity against 
us as a reaction. So I think, again, what we have to do--and 
the chairman is right. We have to come up with a coherent, 
multifaceted strategy, and I think we can agree upon it and 
move forward.
    Chairman McCain. I think Senator King wants to weigh in on 
this.
    Senator Reed. He has a quote from Mark Twain.
    [Laughter.]
    Senator King. No, I do not. Sorry about that.
    Chairman McCain. Yes. The one about suppose you are a 
Congressman, suppose you are an idiot, but then I repeat 
myself?
    [Laughter.]
    Senator King. Do not get me started.
    We are talking mostly about military strategy, and that is 
absolutely appropriate because we are fighting a military 
opposition. But we are also fighting an idea. And I think if 
there is any gap in the--well, there are several gaps, but one 
of the serious gaps is the clash of ideas gap. We wiped out 
USIA [United States Information Agency] 15 years ago. It now 
appears that was a mistake. For the country that invented 
social media to be losing the battle of social media is 
shocking to me, and I think that we need a much more strong and 
vigorous ideas thrust ultimately because it is very difficult 
to kill ideas and we are not going to do it with drones. We 
have got to do it with information. And I think that has got to 
be part of the strategy in connection with all the military 
options, the air strikes, the troops, all of those things. But 
I fear that that is one of the places. These people in 
California were radicalized online, and I think that should be 
a real serious warning to us that that is where this battle is 
also taking place.
    Thank you, Mr. Chairman.
    Chairman McCain. Also, by the way, a great Russian success 
is their propaganda in eastern Europe as well.
    Would any of the witnesses like to respond to those words 
of wisdom by the Senator from Maine?
    Ms. Flournoy. I do not have a ready Mark Twain quote, but I 
do agree with the notion that this has to be a sustained 
multidimensional effort. I think some of the areas where we are 
lacking is in countering the narrative online. ISIS is posting 
90,000 posts a day online, and one of the most effective things 
I saw in counter was the tweeting of a remark that was made 
after the stabbings in the UK metro, which was someone saying 
to the attacker, you ain't a Muslim, bro. I mean, this behavior 
of stabbing civilians in the London Tube is not representative 
of the religion of all of Islam. And that got tweeted virally. 
And that was probably one of the most effective counter-
narrative things that has happened recently.
    But we do not have a sustained and systematic effort online 
to counter ISIS presence and attempt at recruiting. But more 
fundamentally I think what we really lack at the community 
level, here, overseas, is community-level counter-
radicalization programs. And it cannot be something the U.S. 
Government comes in and does. We can help facilitate, but 
really funding, assisting, help enabling those community-level 
engagement to try arrest radicalization inside communities 
here, in Europe, elsewhere. That is a critical part of the 
strategy that I think needs more attention as well.
    Chairman McCain. Secretary Vickers, did you want to add 
anything?
    Mr. Vickers. No. I agree. You cannot win in the long run 
without really countering and discrediting the idea. I would 
add in the short run, one of the ways to discredit the idea is 
to really set them back. I mean, part of their success right 
now is they are perceived as having the success.
    Chairman McCain. Absolutely. I think that is a very key 
item here.
    Mr. Vickers. And we saw that, for instance, with the 
Taliban and al-Qaeda right after 9/11. You know, their stock 
went way up after 9/11, and then 3 months later, when they were 
kicked out, it was, you know, who are those bums for a while. 
Now, it did not last. It does not win the long-term war, but it 
does matter.
    Chairman McCain. Commander Eggers, did you want to --
    Mr. Eggers. I would just balance out the conversation by 
offering the flip side of that idea, which is that one way to 
destroy an organization's ideology is to dismantle the 
organization, of course. But what we need to be careful about 
is the unintended consequences of how we do that because in 
this case that is precisely what could play into their 
narrative, particularly with the introduction of U.S. or 
Western ground forces and the escalation of that type of war 
within their region. And I think that is the issue that really 
comes into play where it gets very complex between the military 
application of means and the ideological fight.
    Chairman McCain. Well, we can continue this discussion, but 
I think it is incredible to say if you accept the view that 
some U.S. military presence is needed, which clearly events 
indicate to me, which we have been talking about for a long 
time, and predicting the events that have taken place, that 
then you are conceding that ISIS can continue to succeed. There 
is no strategy now. There is no strategy to take Raqqa, their 
base, where they are, among other things, developing chemical 
weapons. So this idea that somehow the United States of 
America, by inserting some ground troops in order to succeed, 
is going to be counterproductive--what is the option? That they 
continue to succeed? Is it not to your satisfaction that we 
cannot defeat ISIS without American involvement and simply not 
from the air. Air power does not win.
    So I respectfully disagree with this insane idea that 
somehow if we intervened to stop people that have just 
orchestrated an attack that killed people in San Bernardino, 
that somehow it will be counterproductive. The worst 
counterproductive thing would be to allow them to succeed.
    But I look forward to continuing this discussion with you, 
Commander, and I respect your view.
    And I thank all of you for being here today, and we look 
forward to continuing working with you on this restructuring, 
which was the reason for this hearing to start with. Thank you.
    [Whereupon, at 10:59 a.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Kelly Ayotte
                             isis strategy
    1. Senator Ayotte. Secretary Flournoy and Secretary Vickers, what 
is lacking in the President's strategy against ISIS, and what should 
the administration be doing that it is not?
    Secretary Flournoy and Secretary Vickers did not respond in time 
for printing.
                           nato force posture
    2. Senator Ayotte. Secretary Flournoy and Secretary Vickers, the 
National Defense Panel review of the 2014 Quadrennial Defense Review 
(QDR) concluded last year that Russia's aggression in Ukraine calls 
into question the longstanding view that Europe is a `net producer' of 
security. As a result, the panel concluded that ``NATO must bolster the 
security of its own frontline states, especially in the Baltics and 
across southern Europe but also in Poland, lest they be subject to 
intimidation and subversion. America must lead the alliance in this 
regard.'' This belief that we must bolster U.S. and NATO force posture 
in Eastern Europe has been reiterated in a bipartisan manner by others 
who have appeared before the Senate Armed Services Committee this year, 
including former Secretaries of State Dr. Brzezinski and Dr. Albright. 
General Jones, Former Supreme Allied Commander Europe, said earlier 
this year that a failure to respond to Russia's aggression in Europe 
appropriately could represent the ``beginning of the end of NATO.'' 
What is your assessment of the administration's action so far in 
bolstering security in NATO's frontline states, and what more needs to 
be done?
    Secretary Flournoy and Secretary Vickers did not respond in time 
for printing.
                                ukraine
    3. Senator Ayotte. Secretary Flournoy, along with others, you 
authored a report published this past February by the Atlantic Council, 
Brookings, and the Chicago Council on Global Affairs entitled 
``Preserving Ukraine's Independence, Resisting Russian Aggression: What 
the United States and NATO Must Do.'' The report said that the U.S. 
should provide ``direct military assistance--in far larger amounts than 
provided to date and including lethal defensive arms--so that Ukraine 
is better able to defend itself.'' The report concluded, ``Only if the 
Kremlin knows that the risks and costs of further military action are 
high will it seek to fins an acceptable political solution. Russia's 
actions in and against Ukraine pose the gravest threat to European 
security in more than 30 years.'' Do you still believe that the United 
States should provide lethal arms to Ukraine? Why?
    Secretary Flournoy did not respond in time for printing.

    4. Senator Ayotte. Secretary Flournoy, what specific capabilities 
would you recommend the administration provide to Ukraine?
    Secretary Flournoy did not respond in time for printing.
                            detention policy
    5. Senator Ayotte. Secretary Vickers and Commander Eggers, the 
spokesman for Operation Inherent Resolve, Colonel Steve Warren, 
recently said that ``certainly it's our preference to capture in all 
cases. It allow[s] us to collect intelligence.'' As of today, Ayman al 
Zawahiri and Abu Bakr al Baghdadi, the heads of al-Qaeda and ISIS 
respectively, have yet to be killed or captured. From an intelligence 
perspective, would you rather kill or capture Zawahiri and Baghdadi? 
Why?
    Secretary Vickers and Commander Eggers did not respond in time for 
printing.

    6. Senator Ayotte. Secretary Vickers, would it take more than a few 
weeks to gather all of the valuable intelligence that Zawahiri and 
Baghdadi could provide?
    Secretary Vickers did not respond in time for printing.
    7. Senator Ayotte. Secretary Vickers, would there be value in 
potentially returning months or years later to interrogate Zawahiri and 
Baghdadi to confirm or clarify information gathered elsewhere?
    Secretary Vickers did not respond in time for printing.

    8. Senator Ayotte. Secretary Vickers, could intelligence from 
Zawahiri and Baghdadi prevent future attacks and enable the United 
States to go after al-Qaeda or ISIS more effectively?
    Secretary Vickers did not respond in time for printing.

    9. Senator Ayotte. Secretary Vickers, would it help or hurt our 
intelligence collection efforts if, after a few weeks of questioning 
Zawahiri or Baghdadi on a ship, we sent them to the Southern District 
of New York and told them that they ``have the right to remain 
silent''?
    Secretary Vickers did not respond in time for printing.

    10. Senator Ayotte. Secretary Vickers, if Zawahiri or Baghdadi were 
captured tonight, where would we detain them for long-term law of war 
detention and interrogation?
    Secretary Vickers did not respond in time for printing.

    11. Senator Ayotte. Secretary Vickers, on February 15, 2011, when 
you came before this committee as the nominee to be Under Secretary of 
Defense for Intelligence, I asked you about the administration's 
detention policy. You responded that ``the administration is in the 
final stages of revising its--or establishing its detention policy.'' 
Almost five years later, has the administration completed its detention 
policy? If yes, what is it? If no, why not?
    Secretary Vickers did not respond in time for printing.

                                 [all]
</pre></body></html>
